<html>
<title> - H.R. 806, OZONE STANDARDS IMPLEMENTATION ACT OF 2017</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


          H.R. 806, OZONE STANDARDS IMPLEMENTATION ACT OF 2017

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 22, 2017

                               __________

                           Serial No. 115-17
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                       
                           
                         

      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                    
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-633 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ccabbca38cafb9bfb8a4a9a0bce2afa3a1e2">[email&#160;protected]</a>                    
                    
                    
                    
                    
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                       Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, CaliforniaL RUIZ, 
MARKWAYNE MULLIN, Oklahoma               California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

<RAU>
                      Subcommittee on Environment

                         JOHN SHIMKUS, Illinois
                                 Chairman
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    RAUL RUIZ, California
TIM MURPHY, Pennsylvania             SCOTT H. PETERS, California
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
GREGG HARPER, Mississippi            DIANA DeGETTE, Colorado
PETE OLSON, Texas                    JERRY McNERNEY, California
BILL JOHNSON, Ohio                   TONY CARDENAS, California
BILL FLORES, Texas                   DEBBIE DINGELL, Michigan
RICHARD HUDSON, North Carolina       DORIS O. MATSUI, California
KEVIN CRAMER, North Dakota           FRANK PALLONE, Jr., New Jersey (ex 
TIM WALBERG, Michigan                    officio)
EARL L. ``BUDDY'' CARTER, Georgia
GREG WALDEN, Oregon (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     4
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     6
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, prepared statement.....................................    85
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, prepared statement........................    86

                               Witnesses

Sean Alteri, Director, Division of Air Quality, Kentucky 
  Department of Environmental Protection.........................     7
    Prepared statement...........................................     9
    Answers to submitted questions...............................   165
Mark Cone, Director, Bureau of Air Quality, Maine Department of 
  Environmental Protection.......................................    14
    Prepared statement...........................................    16
    Answers to submitted questions...............................   168
Kurt Karperos, PE, Deputy Executive Officer, California Air 
  Resources Board................................................    24
    Prepared statement...........................................    27
    Answers to submitted questions...............................   184
Nancy Vehr, Air Quality Administrator, Wyoming Department of 
  Environmental Quality..........................................    32
    Prepared statement...........................................    34
    Answers to submitted questions...............................   196
Homer A. Boushey, M.D., Professor of Medicine, Division of 
  Pulmonary/Critical Care Medicine, University of California, San 
  Francisco......................................................    48
    Prepared statement...........................................    50
    Answers to submitted questions...............................   207
Seyed Sadredin, Executive Director/Air Pollution Control Officer, 
  San Joaquin Valley Air Pollution Control District..............    55
    Prepared statement...........................................    57
    Answers to submitted questions...............................   212

                           Submitted Material

Statement of Glenn Hamer, Arizona Chamber of Commerce and 
  Industry, submitted by Mr. Shimkus.............................    88
Article entitled ``US surface ozone trends and extremes from 1980 
  to 2014: quantifying the roles of rising Asian emissions, 
  domestic controls, wildfires, and climate,'' Atmospheric 
  Chemistry and Physics, 2017, submitted by Mr. Shimkus..........   101
Majority memorandum, submitted by Mr. Shimkus....................   129
Statement of public health and medical organizations, submitted 
  by Mr. Tonko...................................................   140
Statement of the Central Valley Air Quality Coalition, submitted 
  by Mr. Tonko...................................................   143
Comments of the Central Valley Air Quality Coalition, submitted 
  by Mr. Tonko...................................................   146
Article entitled, ``Alex Sherriffs and John Capitman: Don't back 
  off demands for cleaner air,'' Fresno Bee, Sept. 30, 2015, 
  submitted by Mr. Tonko.........................................   151
Statement of the New York State Department of Environmental 
  Conservation, submitted by Mr. Tonko...........................   154
Statement of the American Chemistry Council, submitted by Mr. 
  Shimkus........................................................   159
Statement of Community Organizations, submitted by Mr. Tonko.....   162

 
          H.R. 806, OZONE STANDARDS IMPLEMENTATION ACT OF 2017

                              ----------                              


                       WEDNESDAY, MARCH 22, 2017

                  House of Representatives,
                       Subcommittee on Environment,
                           Committee on Energy and Commerce
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2123 Rayburn House Office Building, Hon. John Shimkus 
(chairman of the subcommittee) presiding.
    Present: Representatives Shimkus, McKinley, Blackburn, 
Harper, Olson, Johnson, Flores, Hudson, Walberg, Carter, Tonko, 
Ruiz, Peters, Green, McNerney, Cardenas, and Matsui.
    Staff present: Grace Appelbe, Legislative Clerk, Energy/
Environment; Wyatt Ellertson, Research Associate, Energy/
Environment; Blair Ellis, Digital Coordinator/Press Secretary; 
Tom Hassenboehler, Chief Counsel, Energy/Environment; A.T. 
Johnston, Senior Policy Advisor, Energy; Ben Lieberman, Senior 
Counsel, Energy; Katie McKeough, Press Assistant; Alex Miller, 
Video Production Aide and Press Assistant; Annelise Rickert, 
Counsel, Energy; Chris Sarley, Policy Coordinator, Environment; 
Dan Schneider, Press Secretary; Peter Spencer, Professional 
Staff Member, Energy; Jeff Carroll, Minority Staff Director; 
David Cwiertney, Minority Energy/Environment Fellow; Jean 
Fruci, Minority Energy and Environment Policy Advisor; Caitlin 
Haberman, Minority Professional Staff Member; Rick Kessler, 
Minority Senior Advisor and Staff Director, Energy and 
Environment; and Alexander Ratner, Minority Policy Analyst.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. The Subcommittee on the Environment will now 
come to order. The Chair now recognizes himself for 5 minutes 
for an opening statement.
    During today's legislative hearing we will consider H.R. 
806, the Ozone Standards and Implementation Act of 2017. Mr. 
Olson reintroduced this bipartisan bill this past February 
after its development through the committee process and passage 
in the House in the 114th Congress as H.R. 4775. We thank Mr. 
Olson, as well as Mr. Flores, Mr. Latta, and a guy named Mr. 
Scalise for the particular leadership and thoughtful 
contributions to the previous bill and what is now H.R. 806.
    The Ozone Standards and Implementation Act makes practical 
reforms to the Clean Air Act to streamline implementation of 
national air quality standards by the state and local 
authorities. These reforms seek to improve the states' ability 
to meet the new ozone and other air quality standards without 
undermining efforts to ensure and promote the productive 
capacity of their citizens.
    The bill reflects what we have learned from a record 
developed over a number of hearings and extending back to the 
committee's Clean Air Act reforms in 2012. An important lesson 
from this record is that timelines and procedures established 
almost 30 years ago can be counterproductive today. The result 
is unnecessary costs, duplicative efforts, regulatory delay, 
and economic uncertainty.
    The 2015 ozone standards provide a case in point. In 
October 2015, EPA established a new ground-level ozone standard 
of 70 parts per billion, down from 75 parts per billion 
established 7 years earlier in 2008. The practical problem is 
that EPA had only issued implementation regulations for the 
2008 standard 6 months earlier, in March 2015. So just as 
states were implementing measures for one standard they would 
now have to divert resources to implement measures for another 
standard for the same criteria pollutant. Yet EPA projected 
that the majority of areas that may be subject to the new 
standards would come into compliance with those standards under 
existing rules and programs.
    It does not make sense why these areas should be subject to 
new, long-term compliance and reporting regimes that they would 
avoid if allowed to let existing measures work. But this cannot 
happen under the tight timelines that were established almost 
30 years ago when air quality was much worse and emission 
controls were just beginning to take hold.
    Add up the many other compliance deadlines for other EPA 
regulations, related litigation, the rapid pace of new rules, 
and you can see how this process hinders the ability of states 
to establish orderly plans and predictable permitting regimes.
    As a result, state and local regulators expend resources 
and time keeping up with a never-ending succession of rules. 
This undermines their ability to focus on assessing the 
performance of existing public health measures. It also 
undermines their ability to ensure predictability so that 
people can build and expand their business and infrastructure.
    H.R. 806 makes some reasonable changes to update the Clean 
Air Act requirements to address these problems. For example, 
the bill phases in implementation of the 2008 and 2015 ozone 
standards, extending the date for final designations for the 
latter standards to 2025 and aligns permitting requirements 
with this phased implementation schedule.
    It also provides reasonable timing for mandatory reviews of 
air quality standards by extending the requirement to 10 years, 
while preserving the EPA Administrator's discretion to issue 
revised standards earlier, if necessary. This falls in line 
with the Clean Air Act's cornerstone ``cooperative federalism'' 
approach which mandates that EPA establish the NAAQS, but 
leaves the task of deciding how to achieve them largely to the 
states.
    It requires timely issuance of implementation regulations 
by EPA to reduce the uncertainty that the states face when 
developing their implementation plans. The bill also authorizes 
the Administrator, under certain and appropriate circumstances, 
to take account of technical feasibility when determining where 
to set emission levels that scientists advise are fully 
protective of public health.
    Other steps the bill takes help ensure states and 
localities are not penalized for emissions and air quality 
events they cannot control.
    With that, let me welcome our witnesses, five of whom bring 
the state and local perspectives that we have focused upon 
throughout this process. They represent California, Maine, 
Wyoming, and Kentucky, regions that often confront different 
types of implementation challenges. We will also hear from the 
representative of the American Thoracic Society.
    Let me note for the record that we invited EPA to the 
hearing. And while the agency was unable to provide a witness 
today, we expect to receive written comments on the bill in 
time.
    I think all our witnesses will agree that our ultimate goal 
is to ensure air quality is protective of public health. Of 
course, the key to that objective is to ensure that we have 
laws that effectively facilitate standards for implementation. 
That is what this bill aims to do.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    Today's legislative hearing will consider H.R. 806, the 
``Ozone Standards Implementation Act of 2017.''
    Mr. Olson reintroduced this bi-partisan bill this past 
February, after its development through the Committee process 
and passage in the House in the 114th Congress as H.R. 4775. 
Let me thank Mr. Olson as well as Mr. Flores, Mr. Latta, and 
Mr. Scalise for their particular leadership and thoughtful 
contributions to the previous bill and what is now H.R. 806.
    The Ozone Standards Implementation Act makes practical 
reforms to the Clean Air Act to streamline implementation of 
national air quality standards by state and local authorities. 
These reforms seek to improve the states' ability to meet the 
new ozone and other air-quality standards without undermining 
efforts to ensure and promote the productive capacity of their 
citizens.
    The bill reflects what we have learned from a record 
developed over a number of hearings and extending back to the 
Committee's Clean Air Act forums in 2012. An important lesson 
from this record is that timelines and procedures established 
almost 30 years ago can be counterproductive today. They result 
is unnecessary costs, duplicative efforts, regulatory delay, 
and economic uncertainty.
    The 2015 ozone standards provide a case in point. In 
October 2015 EPA established a new ground-level ozone standard 
of 70 parts per billion, down from 75 parts per billion 
established 7 years earlier in 2008.
    The practical problem is that EPA had only issued 
implementation regulations for the 2008 standard 6 months 
earlier in March 2015. So just as states were implementing 
measures for one standard they would now have to divert 
resources to implement measures for another standard for the 
same criteria pollutant. Yet EPA projected that the majority of 
areas that may be subject to the new standards would come into 
compliance with those standards under existing rules and 
programs.
    It does not make sense why these areas should be subject to 
new, long-term compliance and reporting regimes that they would 
avoid if allowed to let existing measures work. But this cannot 
happen under the tight timelines that were established almost 
30 years ago, when air quality was much worse, and emissions 
controls were just beginning to take hold.
    Add up the many other compliance deadlines for other EPA 
regulations, related litigation, the rapid pace of new rules, 
and you can see how this process hinders the ability of states 
to establish orderly plans and predictable permitting regimes.
    As a result, state and local regulators expend resources 
and time keeping up with a never-ending succession of rules. 
This undermines their ability to focus on assessing the 
performance of existing public-health measures. It also 
undermines their ability to ensure predictability so that 
people can build and expand their businesses and 
infrastructure.
    HR 806 makes some reasonable changes to update Clean Air 
Act requirements to address these problems. For example, the 
bill phases in implementation of the 2008 and 2015 ozone 
standards, extending the date for final designations for the 
latter standards to 2025 and aligns permitting requirements 
with this phased implementation schedule.
    It also provides reasonable timing for mandatory reviews of 
air quality standards by extending the requirement to ten 
years, while preserving the EPA Administrator's discretion to 
issue revised standards earlier, if necessary. This falls in 
line with the Clean Air Act's cornerstone ``cooperative 
federalism'' approach-which mandates that EPA establish the 
NAAQS, but leaves the task of deciding how to achieve them 
largely to the states.
    It requires timely issuance of implementation regulations 
by EPA to reduce the uncertainty that the states face when 
developing their implementation plans. The bill also authorizes 
the Administrator--under certain and appropriate 
circumstances--to take account of technical feasibility when 
determining where to set emissions levels that scientists 
advise are fully protective of the public health. Other steps 
the bill takes help ensure states and localities are not 
penalized for emissions and air quality events they cannot 
control.
    With that, let me welcome our witnesses--five of whom bring 
the state and local perspectives that we have focused upon 
throughout this process. They represent California, Maine, 
Wyoming, and Kentucky--regions that often confront different 
types of implementation challenges. We will also hear from a 
representative of the American Thoracic Society.
    Let me note for the record that we invited EPA to the 
hearing and while the agency was unable to provide a witness 
today, we expect to receive written comments on the bill in 
time.
    I think all our witness will agree that our ultimate goal 
is to ensure our air quality is protective of public health. Of 
course, the key to that objective is to ensure we have laws 
that effectively facilitate standards implementation. That is 
what this bill is aims to do.

    Mr. Shimkus. And with that, my time has expired. The Chair 
now recognizes the Ranking Member Mr. Tonko from New York.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chair.
    We have examined similar iterations of this legislation in 
the past. So it should not surprise any of my colleagues to 
hear me once again say that protecting public health and 
growing the economy are not mutually exclusive.
    The history of the Clean Air Act and the National Ambient 
Air Quality Standards, or NAAQS, has clearly demonstrated that. 
Since its enactment, the Clean Air Act has reduced key air 
pollutants by roughly 70 percent while the economy has more 
than tripled. I have yet to see any evidence of that trend 
reversing.
    I want to thank our witnesses for being here. I especially 
want to thank Dr. Boushey, certainly, who is testifying on 
behalf of the American Thoracic Society. It is important for us 
to remember why the Clean Air Act was passed in the first 
place: to protect public health.
    According to a peer-reviewed 2011 EPA study, in 2010 alone 
the Clean Air Act prevented over 160,000 premature deaths, 
130,000 cases of heart disease, 1.7 million asthma attacks, and 
millions of respiratory illnesses. Healthier people means fewer 
sick days, hospital visits, and premature deaths, all which 
lead to a more productive society. The science is clear: 
breathing air that contains ozone can cause serious health 
effects.
    Cleaning our air is not always easy, but the benefits far 
outweigh the costs. And history has shown that meeting these 
health-protective standards is achievable.
    This bill, as currently drafted, includes a number of 
provisions that would seriously undermine EPA's ability to 
create and implement health-protective standards, and not just 
for ozone but for all NAAQS. It would delay implementation of 
the 2015 ozone standard significantly, extend the review cycle 
for all NAAQS from 5 to 10 years, and add consideration of 
technological feasability into the standard-setting process.
    We all want states and EPA to work cooperatively under a 
framework that gives states flexibility on meeting these 
targets. But we cannot deny the critical role that the Federal 
Government must play in reducing air pollution.
    I am from a downwind state, and whether it is smog, 
particulate matter, or acid rain, we know air pollutants do not 
respect state lines. For years we have been asking EPA to do 
more with less. This bill continues that. I am not opposed to 
asking for studies and trying to better understand our nation's 
air quality challenges, but we cannot expect these studies to 
be done without additional funding.
    I would be remiss not to mention the President's proposed 
budget which seeks to cut EPA by 31 percent, and includes even 
great percentage cuts to categorical grants. We must assume 
state and local air quality management grants and other 
programs that improve our air quality will not be immune from 
these cuts.
    Solving our nation's long-term air quality issues is going 
to take innovation. I believe in America's ingenuity. It can be 
done. But it will be a lot easier if we support these efforts 
with federal investments. Investments in electric vehicles and 
cleaner trucks are just a few examples that would make a big 
difference.
    I look forward to hearing from our witnesses today on how 
we can achieve our common goal of making our air cleaner for 
generations to come.
    And with that, Mr. Chair, I will yield my remaining time to 
the gentleman from California, Representative McNerney.
    Mr. McNerney. Well, I thank the gentleman from New York for 
yielding.
    It is a privilege to represent the northern part of the San 
Joaquin Valley, one of the most productive agricultural regions 
in the world, and home to manufacturing and renewable energy 
production. However, this region and its residents have 
suffered from some of the worst air quality in the nation. This 
means missed school and missed work. It means premature deaths, 
has a negative impact on the economy, and the long-term public 
health.
    We are fortunate to have the dedicated folks in the San 
Joaquin Air Pollution Control District and the California Air 
Resources Board who have done a tremendous job in improving air 
quality in the last several years. The valley, however, still 
faces significant challenges as the Valley Air District has 
testified in previous years. The valley's geography will always 
make combating air pollution an uphill battle. But the Clean 
Air Act has been an effective tool to improve air quality.
    Unfortunately, the bill before us today weakens the Clean 
Air Act. Improving our air, or even keeping the gains we have 
made, will be even more challenging if this bill were combined 
with the President's budget targeting the EPA's air shed grants 
and DERA grants that have been vital for our region. These are 
all steps backwards when we have made tremendous progress.
    I appreciate the CARB and the Air Valley District with the 
work you do on a daily basis.
    And I yield back the mountainous time that I still have 
remaining. Thank you, Mr. Chairman.
    Mr. Tonko. And I yield back, Mr. Chair.
    Mr. Shimkus. The gentleman yields back his time.
    The Chair now recognizes the subcommittee chairman of the 
Telecommunications Subcommittee, Mrs. Blackburn, for 5 minutes.
    Mrs. Blackburn. Thank you, Mr. Chairman.
    I am from Tennessee.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. This is an issue that affects us and 
affects a lot of our counties. And the NAAQS standards are 
something that has been of concern. I am appreciative to Mr. 
Olson for the bill and for going about looking at this.
    I will tell you, and one of the things I want to talk with 
you all about, we know from the EPA that the technology that is 
necessary for some of these standards to be in place, you know, 
it doesn't even exist yet. And so this concerns us because it 
makes long-term planning and budgeting very difficult. So 
sometimes I look at what was pushed forward with the 
finalization of the NAAQS standards and the ozone standards and 
I just think, you know, we kind of got the cart before the 
horse.
    And while, as I repeatedly say, we are all for clean air, 
we are all for clean water, what we want to do is make certain 
that there is the ability to plan for and to meet the standards 
that are on the books, and that we can do things in a 
technologically feasible and cost-effective manner.
    So we thank you for being here and for your attention to 
the issue. And, Mr. Chairman, I yield back.
    Mr. Shimkus. The gentlelady yields back the time.
    Without objection, we will hold the Ranking Member's 5 
minutes if he is able to attend. And with that, we will now 
turn to our panel. And I will recognize you are allowed to 
speak. Your full testimony is submitted in the record.
    You will have 5 minutes. It is an mportant issue, you can 
go over a little it. If you go over a minute-and-a-half or two 
minutes, then we will probably try to get your attention. It is 
a big panel, so we want to get to questions.
    So, first up is Mr. Sean Alteri, Director of the Division 
of Air Quality at the Kentucky Department of Environmental 
Protection. We are glad to have you, sir. You are recognized 
for 5 minutes.

 STATEMENTS OF SEAN ALTERI, DIRECTOR, DIVISION OF AIR QUALITY, 
  KENTUCKY DEPARTMENT OF ENVIRONMENTAL PROTECTION; MARK CONE, 
     DIRECTOR, BUREAU OF AIR QUALITY, MAINE DEPARTMENT OF 
 ENVIRONMENTAL PROTECTION; KURT KARPEROS, PE, DEPUTY EXECUTIVE 
   OFFICER, CALIFORNIA AIR RESOURCES BOARD; NANCY VEHR, AIR 
  QUALITY ADMINISTRATOR, WYOMING DEPARTMENT OF ENVIRONMENTAL 
    QUALITY; HOMER A. BOUSHEY, M.D., PROFESSOR OF MEDICINE, 
  DIVISION OF PULMONARY/CRITICAL CARE MEDICINE, UNIVERSITY OF 
 CALIFORNIA, SAN FRANCISCO; SEYED SADREDIN, EXECUTIVE DIRECTOR/
AIR POLLUTION CONTROL OFFICER, SAN JOAQUIN VALLEY AIR POLLUTION 
                        CONTROL DISTRICT

                    STATEMENT OF SEAN ALTERI

    Mr. Alteri. Thank you, Chairman.
    Good morning, Chair Shimkus, Ranking Member Tonko, and 
members of the subcommittee. My name is Sean Alteri, and I 
currently serve as the Director for the Division of Air Quality 
in Kentucky. I am honored to testify today and I thank you for 
the opportunity to tell you about our commonwealth and share 
some good information about our commonwealth.
    In addition to my work with the Kentucky Division for Air 
Quality, I am currently serving as the President of the 
Association of Air Pollution Control Agencies. Our association 
is a national non-partisan, consensus-driven organization 
focused on improving air quality. The association represents 
more than 40 state and local air quality control agencies, and 
more than 20 environmental senior officials from state 
environmental agencies serve on its board of directors.
    Regarding today's hearing, I appreciate the thoughtfulness 
and consideration that went into the drafting of H.R. 806. The 
bill's intent to facilitate efficient state implementation of 
ground-level ozone standards is a welcome opportunity for state 
and local air quality regulators. H.R. 806 is supported by 
leaders of air pollution control agencies. The strategic 
approach to modernizing the Clean Air Act is necessary and 
appropriate.
    There are three elements of the bill that deserve emphasis. 
First, the proposed amendments establish a more reasonable time 
interval for area designations and revised NAAQS and provides 
EPA and state air pollution control officials with sufficient 
time to meet its statutory obligations.
    Additionally, H.R. 806 requires the study and report of 
international pollution and its impacts on air quality.
    And, finally, H.R. 806 will also obligate EPA and NOAA to 
conduct a study to determine regional background of naturally-
occurring concentrations of volatile organic compounds and 
nitrogen oxides from vegetation.
    These studies will provide the necessary information for 
state and local air pollution control officials to develop 
cost-effective air pollution control strategies.
    With respect to the periodic review of criteria pollutants, 
H.R. 806 modernizes the statutory clock to reflect the 
significant improvements that have been made in air quality. 
Section 3 of H.R. 806 provides for a more practical and 
attainable 10-year interval for the review and potential 
revision of air quality standards. Moving forward, this time 
period will be essential to achieve the most difficult, the 
most expensive remaining increments of air quality improvement.
    In fact, the time frames and processes detailed in H.R. 806 
are consistent with those that EPA has most recently employed 
to designate areas with respect to the 2010 SO<INF>2</INF> 
standard. Although the sulfur dioxide standard was revised in 
2010, the court order resulting from the consent decree 
negotiated between EPA and third party interest groups sets the 
schedule for EPA to complete all area designations by December 
31, 2020, 10 years after the NAAQS requires. Given the court's 
decision, the 10-year interval for designation time frame 
expressed in H.R. 806 is consistent with EPA's approach to the 
2010 SO<INF>2</INF> standard.
    As a Director for the Division for Air Quality, I am 
responsible for carrying out the Clean Air Act congressional 
declaration of purpose, and that is, ``To insure that economic 
growth will occur in a manner consistent with the preservation 
of clean air resources.''
    In Kentucky, we have a strong manufacturing economy that is 
robust and growing. Many of the products that are manufactured 
in Kentucky are essential to our national security and economy. 
For example, Kentucky produces military-grade aluminum and 
steel to protect our soldiers and to provide them with the 
resources to carry out their missions. We are a world leader in 
the aerospace industry and are currently the third largest 
automobile manufacturer in the United States. We are home to 
Toyota, Ford, and General Motors.
    We melt, cast, and mold more than 50 percent of the 
aluminum produced in the United States and more than 35 percent 
of the nation's stainless steel. Currently, two of the four 
remaining primary aluminum facilities operate in the 
commonwealth. And, not to be forgotten, 95 percent of the 
world's bourbon is distilled in Kentucky. Simply put, Kentucky 
makes the things that enables other states in the nation to 
grow their economies and improve their quality of life.
    In closing, state and local permitting authorities must be 
provided with regulatory certainty throughout the permitting 
process of new, modified, and reconstructed stationary sources. 
The regulatory certainty is necessary to carry out our 
statutory obligations, which includes providing for economic 
growth. The reasonable amendments proposed in H.R. 806 will 
further enable all of our states to continue to grow our 
economy, enhance our quality of life, and improve our air 
quality.
    Again, thank you for the opportunity to comment on H.R. 
806, and I look forward to any questions you may have regarding 
my testimony.
    [The prepared statement of Mr. Alteri follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you very much.
    Now I would like to turn to Mr. Marc Cone, Professional 
Engineer, Director of the Bureau of Air Quality at the Maine 
Department of Environmental Protection.
    Sir, you are recognized for 5 minutes. Welcome.

                     STATEMENT OF MARC CONE

    Mr. Cone. Thank you, Chairman Shimkus, Ranking Member 
Tonko, and members of the subcommittee. I am Marc Cone, 
Director of the Bureau of Air Quality with Maine Department of 
Environmental Protection. With over 30 years of experience 
working on Clean Air Act issues, I am here to speak in support 
of H.R. 806. Thank you for inviting me to speak.
    Maine benefits from clean air and pristine waters and 
supports environmental protection. Strong national 
implementation of the Clean Air Act requirements benefits 
people of Maine more than most because much of the pollution of 
our air comes from areas downwind of us. Emissions data, 
ambient monitoring data, and meteorological data irrefutably 
show that short and long range transport of air pollutants to 
Maine from other states and nations all affect Maine's air 
quality.
    The Clean Air Act has been successful in reducing 
significant amounts of air pollution, but today the Act is 
inefficient. Maine is supportive of the Environmental 
Protection Agency implementing the Clean Air Act in an 
efficient manner and as expeditiously as practical. When the 
Clean Air Act was in its infancy, the 5 years between 
reevaluations of standards may have made sense, but now it 
seems to be a pragmatic problem.
    When the requirements to review ambient standards was new, 
the 5 years may have been effective due to less complicated and 
less costly controls, allowing timelier progress. 
Unfortunately, the reality today has been that EPA has failed 
to accomplish implementing new standards in a 5 year time 
frame. The current time frame has created uncertainty for 
facilities and for state and local regulating agencies.
    It is both difficult and frustrating to fully understand 
regulatory requirements, explore options, plan, fund, contract 
work, implement, and measure the results of changes intended to 
maintain ambient air quality standards when the target is 
redefined on an erratic schedule and guidance for 
implementation of any new standard is not provided at the same 
time the standard is set.
    It is complicated. A standard without an implementation 
strategy is like giving someone a destination without a map. 
You can probably get there, but it is going to take some time 
and effort. Currently, the system does not work and it is now 
an excellent time to consider changes.
    Today, for a new standard EPA needs to propose, consider 
comments, finalize, defend legal challenges, develop 
implementation rules, and work with states on these plans. They 
must accomplish this all before evaluating the standard again. 
This is quite a challenge, which has been reflected in the 
latest standards.
    EPA promulgated an ozone standard to replace the 1997 ozone 
standard 11 years later, in 2008. The EPA did not issue the 
implementation regulation for the 2008 standard until 2015, 7 
years after the promulgation of the standard. Just months after 
the 2015 implementation regulation was issued for the 2008 
standard, EPA promulgated a new ozone standard.
    Even now, the latest data suggests that some areas in the 
ozone transport region are not attaining the 1997 standard, not 
to mention the 2008 and 2015 standard. The reality is that when 
a standard is set, EPA needs to issue an implementation 
strategy for that standard at the same time.
    The latest sulfur dioxide standard was promulgated in 2010. 
The 2010 standard provides a new level of complexity to 
implement, as EPA had significant time to develop 
implementation requirements that came out in 2015. Depending on 
a state's plan, the final assessment of the 2010 sulfur dioxide 
standard will not occur until approximately 10 years after it 
was put in place. Again, the proposal in H.R. 806 seems a 
practical response to reality.
    The PM2.5 standard has also been a complicated process. In 
1997, EPA promulgated the first PM2.5 standard. The 
implementation has been very confusing and a technically 
challenging process.
    In summary, the implementation of this standard to date 
continues to create regulatory uncertainty. A 10-year time 
frame for some standards may still not be enough for EPA to 
overcome the technical challenges of a standard.
    In conclusion, a standard without an implementation 
strategy will not protect citizens. The challenges and 
uncertainty of the 1997 ozone and particulate matter standard 
continue 20 years after their promulgation. The changes, as 
proposed in H.R. 806, to delay final designations under the 
2015 standard until 2025, and to extend the time frame for 
standards review from every 5 years to every 10 years, 
including concurrently-published, clearly-defined implementing 
regulations, would allow for due process to be followed and 
fulfilled. This would more effectively and efficiently utilize 
federal, state, and individual facility resources to establish 
a standard and work for the improvement of air quality and 
protection of the people of our nation.
    Thank you for allowing me to speak today. And I welcome any 
questions you may have.
    [The prepared statement of Mr. Cone follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you very much.
    The Chair now recognizes Mr. Kurt Karperos, Deputy 
Executive Officer of the California Air Resources Board. 
Welcome, and you are recognized for 5 minutes.

                   STATEMENT OF KURT KARPEROS

    Mr. Karperos. Good morning, Chairman Shimkus, Ranking 
Member Tonko, and members of the committee. My name is Kurt 
Karperos. I am Deputy Executive Officer of the California Air 
Resources Board. Thank you for the opportunity to speak with 
you today.
    The Air Resources Board is the California agency 
responsible for implementing the Clean Air Act in all areas of 
the state. I oversee that responsibility, including meeting 
federal air quality standards in the areas with the most 
persistent pollution, the greater Los Angeles area, that we 
refer to as the South Coast, and the San Joaquin Valley. These 
two regions pose the nation's greatest challenge in meeting the 
ozone standard and ensuring the residents breathe healthful 
air.
    It is from that perspective that I want to cover three 
points in my testimony today.
    First, meeting health-based, health-protective standards 
for air quality is achievable.
    Second, economic growth and development while cleaning the 
air is not only possible, in California it is a reality.
    And, third, weakening the Clean Air Act, as H.R. 806 would 
do, is unnecessary and will harm the health and well-being of 
millions of people.
    Nearly half of California's 38 million residents live in 
regions with pollution levels that exceed the 70 parts per 
billion ozone standard. Of those, almost five million are 
children, with nearly one-half million suffering from asthma.
    California supported EPA's use of the most current and 
robust scientific studies to set health-protective ozone 
standards because reaching this standard would reduce premature 
mortality, emergency room visits for asthma, hospitalizations, 
and lost work and school days.
    Simply put, meeting the ozone standard is a public health 
imperative.
    California has a long and successful history of meeting 
health-protective, science-based standards. Of California's 19 
areas that once exceeded either the 1-Hour Ozone Standard or 
the original 8-Hour Ozone Standard, only four exceed those 
standards today.
    The San Joaquin Valley has made significant process. This 
extreme non-attainment area now meets the 1-Hour Ozone 
Standard. It is on track to meet the 80 parts per billion ozone 
standard. And last summer, San Joaquin Valley leaders adopted a 
plan to meet the 75 parts per billion ozone standard by the 
Clean Air Act's deadline of 2031.
    The South Coast is more challenging, but progress there is 
also remarkable. The region once measured 1-hour ozone values 
above the standard on over 200 days per year. Today it has 
dropped to less than 20. Similarly, the number of days over the 
8-hour standard have been cut in half since 1990.
    At the same time we have been cleaning the air, 
California's economy has continued to grow and prosper. Last 
year, California's economy grew to be the world's sixth 
largest. In 2016, California non-farm employment increased by 
2.6 percent, compared to 1.7 percent nationwide.
    In 2009, the California clean energy industry generated $27 
billion and employed 123,000 people. By 2020, we expect it to 
grow to over $140 billion with 345,000 employed.
    Looking forward, EPA estimates that achieving the 70 parts 
per billion ozone standard would save Californians an estimated 
$0.4 to $1.4 billion per year when accounting for both the 
costs of reducing emissions and the avoided costs of 
healthcare, lost work days and low productivity, and other 
pollution impacts.
    With its science-based, health-protective air quality 
standards, its meaningful deadlines, and its requirements for 
comprehensive plans, the Clean Air Act has been California's 
tool for achieving air quality and economic success. The Clean 
Air Act requires comprehensive planning. H.R. 806 would delay 
planning and increase costs in the long term.
    Today's testimony is timely, as tomorrow the California Air 
Resources Board will consider a plan that will not only provide 
the reductions needed to meet the 75 parts per billion standard 
in 2031, it will also provide the initial reductions needed for 
the new 75 parts per billion standard in 2037. Rather than 
delay and wait, California's solution is to move forward.
    California has used the flexibility in the Act to drive 
innovation. Electric cars are the prime example. The next step 
is cleaner trucks. California has already certified a truck 
that has 90 percent fewer emissions than those on the road 
today. The needed technologies are here now.
    California's success is proof that H.R. 806 is unnecessary. 
It would inappropriately insert control costs into EPA's 
science-based process for setting air quality standards. How 
healthful the air is to breathe is not determined by the cost 
to clean it up. It is a question of science and what air 
pollution does to the human body.
    H.R. 806 would mean more people would breathe dirty air 
longer. It would unwisely mandate that we ignore the pollution 
impacts of weather conditions made worse by man-made climate 
change. It would push off deadlines, erode requirements for 
incremental progress, and undermine the Clean Air Act's 
requirements for comprehensive air quality strategies.
    In closing, let me stress that meeting health-protective 
standards is both achievable and cost-effective. The Clean Air 
Act provides the flexibility to do this.
    Setting healthful air against economic prosperity is a 
false choice. California continues to show that clean air and 
economic growth go hand-in-hand.
    And, finally, delaying the standards will harm the health 
and well-being of millions of people in this country. The San 
Joaquin Valley, in particular, is home to high rates of 
poverty, pollution, and asthma. It is especially critical to 
continue progress in that region.
    And in the end, the economic costs and the human cost of 
polluted air far exceed the costs of cleanup.
    Thank you for the opportunity to speak with you. And I look 
forward to your questions.
    [The prepared statement of Mr. Karperos follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes Ms. Nancy Vehr, Air Quality 
Administrator at the Wyoming Department of Environmental 
Quality. You are recognized for 5 minutes. Thank you for 
joining us.

                    STATEMENT OF NANCY VEHR

    Ms. Vehr. Good morning, Chairman, Ranking Member, and 
members of the committee. Thank you for inviting Wyoming to 
testify.
    Before I discuss ozone, I want to share three facts to help 
you understand Wyoming's perspective.
    First, Wyoming is the ninth largest state and has the 
smallest population of any state in the nation.
    Second, Wyoming is second in the nation in mean elevation, 
with Colorado being the highest.
    Finally, Wyoming is blessed with amazing and abundant 
natural resources that provide our nation, state, and our 
citizens with revenue and jobs. We are proud that we protect 
our natural resources and provide for responsible energy 
production.
    I am going to address five points. My first point is 
wintertime ozone in Wyoming. Our first ozone exceedence came in 
the winter of 2005 in a high-elevation, rural part of the 
state, in an area with abundant oil and gas production. Roughly 
10,000 people live there. It is surrounded by mountain ranges 
on three sides.
    In 2009, Wyoming recommended that the area be designated as 
non-attainment. EPA did so in 2012. Emissions have been greatly 
reduced because of significant participation and work by state 
and local governments, industry, citizens, and the area has now 
attained the 2008 standard. Our experience highlights why a 
one-size-fits-all approach to ozone is not defensible. 
Wyoming's experience differs greatly from EPA's traditional 
ozone focus on low-elevation, densely populated urban areas 
with summertime issues. One-size-fits-all does not fit Wyoming.
    Alternative analytical tools and methods are critical for 
areas with unique characteristics or phenomena, like those that 
we have experienced. In fact, there is still no model that is 
proven effective at replicating our wintertime high ozone 
events. Section 3(j) of H.R. 806 recognizes and provides for 
the study of ozone formation in rural areas and in the winter.
    My second point, and another area that Section 3(j) 
addresses, is background ozone. Background, or naturally 
occurring ozone, in the western United States is not well 
understood. When EPA proposed the 2015 standard, it dismissed 
high elevation site data as an outlier, even though it 
recognized that background concentrations are highest at high 
elevation. Background ozone is a reality in the Mountain West. 
Research is needed in order to better understand the impact of 
background ozone. Section 3(j) provides for that.
    My third discussion point is international transport. In 
addition to understanding background ozone, it is also 
important to have a full understanding of the extent and 
magnitude of influence that internationally-transported ozone 
and precursors have in the West. If the underlying cause of 
elevated ozone is from international transport, then imposing 
costly controls won't make a difference.
    Recent scientific evidence suggests that the Trans-Pacific 
transport of Asian pollution has contributed on the order of 8 
to 15 parts per billion higher ozone levels in the western 
United States. Long-range international transport research, and 
translation of those findings into the regulatory framework, 
would be beneficial. Section 3(i) of H.R. 806 directs EPA to do 
this.
    My fourth point involves exceptional events. Section 3(h) 
of the bill clarifies that certain events, such as non-
ordinarily occurring stagnation of air masses, high 
temperature, or lack of precipitation qualify as exceptional 
events. Wyoming's experience has been that the exceptional 
event demonstration process has been costly and resource 
intensive. Specifying qualifying events and streamlining the 
process will reduce these costs.
    In addition to streamlining, EPA must act on those 
submittals. Between 2011 and 2014, Wyoming submitted 46 
exceptional event demonstrations showing that air quality 
standards had been affected by high winds, wild fires, and 
stratospheric ozone intrusions. However, EPA did not act on any 
of Wyoming's demonstrations of those 46.
    When there is no action and exceptional event 
demonstrations are ignored, the result is inflated monitored 
data that misrepresents the prevailing air quality conditions 
included in modeling, unnecessarily delays permitting, and 
inaccurately characterizes air quality for the public.
    My final point addresses interstate transport. Interstate 
transport provisions prevent one state's emissions and sources 
from contributing significantly to non-attainment or 
interfering with maintenance of a national standard in a 
downwind state. Interstate transport of ozone is an area where 
EPA has shifted its approach towards western states by 
considering modeling results. However, to be useful, models 
must be accurate. Inaccurate models may result in the needless 
expenditure of time and resources and developing solutions for 
the wrong problem or on a non-existent issue. Inaccuracy 
adversely impacts public health and welfare.
    The model results that EPA now uses to address interstate 
ozone arose out of an update to the Cross-State Air Pollution 
Rule that addresses interstate pollution in the East. The rule 
does not apply to western states like Wyoming. In order to 
develop the rule, the EPA used air quality modeling to project 
ozone concentrations and assess contributions. However, after 
EPA adopted the update it began to look to the model and draw 
conclusions about western states such as Wyoming.
    My earlier testimony highlights some of Wyoming's unique 
characteristics that must be factored. Early and meaningful 
engagement with western states is critical. Implementation of 
streamlined and technically-sound measures assures that we can 
spend our resources on air quality improvement.
    Thank you.
    [The prepared statement of Ms. Vehr follows:
    [[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you.
    The Chair now recognizes Dr. Homer Boushey, Medical Doctor, 
from the Division of Pulmonary and Critical Care Medicine at 
the University of California, San Francisco, on behalf of the 
American Thoracic Society.
    Welcome. You are recognized for 5 minutes.

              STATEMENT OF HOMER A. BOUSHEY, M.D.

    Dr. Boushey. Thank you, Mr. Chairman, Ranking Member, 
committee members. Thank you for this opportunity to testify on 
H.R. 806 on behalf of the American Thoracic Society. It's a 
society of over 18,000 physicians, scientists, nurses, and 
other health professionals concerned about the prevention and 
treatment of lung disease.
    I would like to emphasize a few points, although you have 
my written testimony before you. I will focus on what Mr. 
Karperos described as focusing on what air pollution does to 
human health.
    First, ozone harms the health of millions of Americans with 
chronic lung diseases. And as a lung specialist, I treat 
patients with these lung diseases, principally asthma and COPD. 
By prescribing controller medicine, medications, advising on 
avoidance of triggers and modifying lifestyle habits, I help 
them control their disease so they can control their lives. But 
neither they nor I can control the quality of the air they 
breathe out of doors.
    I have cared for patients who live in areas of California 
with serious air quality problems, and know from experience 
that ozone adversely affects human health. It is strongly 
associated with asthma attacks, COPD exacerbations, ER visits, 
hospitalizations, and even premature death. Literally hundreds 
of high-quality, peer-reviewed publications have documented 
that exposure to levels of ozone often exceeded in regions of 
our country. It is bad for human health, especially for those 
with chronic diseases or the respiratory or cardiovascular 
systems.
    Second, ozone harms healthy people, too. Research has shown 
that young people, healthy adults performing light exercise 
while exposed to levels of ozone at, or below, the current 
standard show declines in lung function and increases in lung 
inflammation, effects that we believe account for the 
association of ozone exposure with impairment in lung growth in 
children, development of asthma, exacerbations of asthma in 
children, and exacerbations of asthma and COPD in adults, 
especially in the elderly.
    Third, this bill delays implementation of current national 
standards to reduce ozone pollution, a delay that would result 
in more of all of those: exacerbations of asthma, COPD, 
hospitalizations, premature deaths.
    The bill goes further. It would force the EPA to delay 
updating science-based limits on air pollution. The Clean Air 
Act has required for decades the setting of standards to 
protect our citizens, including sensitive subgroups with an 
adequate margin of safety based on the most up-to-date science. 
Instead of reviewing the National Ambient Air Quality Standards 
every 5 years, as called for under current law, it delays it to 
10. This would force the nation to set aside important new 
research, like recent studies suggesting potential threats air 
pollution presents to newborns, to people with diabetes, and 
possibly to cognitive function in the elderly.
    The health impacts of delay are not trivial. The 10-year 
review lag would mean a newborn would grow to be a 10-year-old 
before a standard was changed, over a time when the lungs 
develop. And we know that lung function at adulthood is a 
predictor of risk of developing lung and cardiovascular 
disease. So, delaying improvements in air quality will affect 
many of our children.
    Lastly, the bill fundamentally rewrites the Clean Air Act 
by directing the EPA Administrator to consider facts unrelated 
to health in setting air quality standards intended to protect 
health. The Clean Air Act states that the EPA Administrator 
must set standards to protect the public health, irrespective 
of costs or technology, or assumes technological feasibility. 
The administrator does that following careful review of 
science, an approach that has helped clean our air for decades.
    The requirement to set a health-based standard has pushed 
the UDES to develop new technologies that enabled these 
productions, to clean our air, create jobs in the meantime, and 
save both money and lives. This approach has been affirmed in 
the U.S. Supreme Court in the majority opinion written by the 
late Justice Scalia.
    As a clinician, as a scientist, and as a citizen, I urge 
that this bill be rejected.
    Thank you for your attention.
    [The prepared statement of Dr. Boushey follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The gentleman yields back his time.
    The Chair now recognizes Mr. Seyed Sadredin as Executive 
Director and Air Pollution Control Officer of the San Joaquin 
Valley Air Pollution Control District.
    We are glad to have you back. You are recognized for 5 
minutes.

                  STATEMENT OF SEYED SADREDIN

    Mr. Sadredin. Thank you. Good morning, Mr. Chairman and 
members of the committee. It is an honor and a great privilege 
to be here before you today. I want to express my gratitude to 
your committee for providing for a thoughtful examination and 
consideration of the federal mandates under the Clean Air Act.
    Given the tremendous challenges that we face in the San 
Joaquin Valley and our decades of real life experience with 
implementing numerous provisions under the Clean Air Act, I am 
hoping that the lessons that we have learned would be helpful 
to your deliberative process as you consider this issue before 
your subcommittee.
    And, Mr. Chairman, I believe that our region is a great 
example of how the Clean Air Act has led to major reductions in 
air pollution, significant improvement in air quality, and 
great benefits to public health throughout the nation. In our 
region the amount of pollution today released into the 
atmosphere by all sections of our economy, all businesses, 
industrial facilities, agriculture, cars and trucks, are at a 
historic low, despite a tremendous growth in the economy and in 
the population that we have had in our region.
    The population exposure to high levels of ozone and 
particulate matter PM2.5 in our region is down by 90 percent 
for ozone and 78 percent for PM2.5. However, our experience, 
Mr. Chairman, indicates that some of the measures, some of the 
provisions in the Clean Air Act, although well-intentioned, are 
leading to unintended consequences.
    Today, on behalf of the San Joaquin Valley Air Pollution 
Control District, I am here to ask you that you include an 
overriding provision in federal law that bars the imposition of 
devastating federal sanctions that could destroy our region 
economically if our inability to attain federal standards is 
due to pollution from sources that fall outside of our control. 
In our case, 85 percent of our pollution we have no control, no 
regulatory authority over.
    We believe this is a reasonable act that deserves strong 
bipartisan support. In fact, today with me I have a number of 
local elected officials on our Air Board, Democrat and 
Republican, that agree that this is something that is fair to 
do and should be done. Today behind me I have Councilmember 
Baines from City of Fresno, Chairman of the Board; Supervisor 
Worthley from Tulare County; Supervisor Elliott from San 
Joaquin County; Supervisor Mendez from Fresno County; and 
Supervisor Pedersen from Kings County.
    As we sit here today, Mr. Chairman, the imposition of 
devastating federal sanctions on San Joaquin Valley residents, 
the poor residents in these disadvantaged communities is 
imminent. And we have no regulatory authority over 85 percent 
of our pollution that comes from mobile sources. We do not 
believe that this is what the Congress envisioned in the Clean 
Air Act, that a region like ours that has left no stone 
unturned, has imposed the most restrictive regulations on 
businesses, on cars and trucks, would be on the verge of 
getting sanctioned with devastating penalties from Washington.
    We have petitioned the federal EPA to adopt tighter 
standards, national standards for trucks and locomotives. We 
have asked the State Air Resources Board to do more for the 
same sources at fault under their jurisdictions. We are asking, 
also, the Federal Government and the State of California to 
provide funding for incentive-based measures that can help 
expedite reductions in air pollution in a more expeditious 
fashion, but also by reinvesting those dollars in local 
communities, help grow the economy, and improve the job market 
in our areas that desperately need more jobs, and enhance the 
economy.
    Despite these exhaustive measures that we have put in 
place, and hoping that both the state and Federal Government 
will deliver what we need to date through a very robust, 
exhaustive public process, we have not been able to identify 
adequate measures to get us the reductions that we need to 
achieve the standards that lie before us.
    If you look at Figures 1 and 2 in my presentation, we can 
shut down all of our valley businesses and we will not get 
enough reductions to meet the standard.
    A federal remedy to bar the imposition of these unfair and 
devastating federal sanctions is our top legislative priority. 
But I wanted to, very briefly in the time that I have 
remaining, share with you some of the implementation issues 
that we have encountered in implementing the Clean Air Act.
    First, the transition between standards is extremely 
chaotic. As EPA tries to establish standards every 5 years, it 
leads to a lot of confusion for the public, for the businesses, 
for the agencies. As we speak today we are on the verge of 
having 10 state implementation plans, costly bureaucratic red 
tape without any corresponding benefit in air quality.
    The artificial deadlines and arbitrary attainment deadlines 
in the Clean Air Act do not allow for a real, meaningful 
consideration of the socioeconomic costs of regulations as 
called for in the Clean Air Act.
    The requirement to have contingency measures in areas that 
are designed as extreme, or classified as extreme non-
attainment, is actually detrimental to air quality and getting 
clean air as rapidly as possible. Our inability to treat 100-
year drought conditions as exceptional events does not make 
sense.
    And, finally, we don't believe that Congress 40 years ago 
when they passed the Clean Air Act understood the scope and the 
nature of particulate matter. We need technologies and we need 
to be able to write, be able to write plans that have to rely 
on yet-to-be-defined technologies to be able to have approvable 
concept.
    Mr. Chairman, at this point I thank you for the time that 
you have provided me and would be happy to expand on these 
issues as we move forward.
    [The prepared statement of Seyed Sadredin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you very much. Great testimony. We 
appreciate you being here. And I will now recognize myself for 
5 minutes to start the round of questions.
    I am going to go to Mr. Alteri. And I want to go quickly. 
There is a lot of stuff that I want to try to cover. So if you 
can answer succinctly, that would be helpful.
    Can you quickly explain what happens when an area is 
designated to be in non-attainment of the 2015 ozone standards?
    Mr. Alteri. As a state agency we would have to develop a 
plan under Part D of Title 1 of the Act rather than Part C. And 
those requirements are much more onerous.
    Mr. Shimkus. Do new compliance requirements add to 
permitting burdens for the area?
    Mr. Alteri. Absolutely.
    Mr. Shimkus. Do those burdens go away when the area comes 
into compliance?
    Mr. Alteri. Not necessarily. And there is a delay in EPA's 
approval.
    Mr. Shimkus. Now, I understand that from EPA's own 
estimates, most counties that may not meet the standard today 
will meet the standard over the next 7 years. Is that your 
understanding?
    Mr. Alteri. It is.
    Mr. Shimkus. And this is because control measures already 
in place, like fleet turnover and other measures, are kicking 
in and resulting in lower precursor emissions. Is that about 
right?
    Mr. Alteri. It is.
    Mr. Shimkus. Does implementation of the new ozone 
compliance regime significantly affect how fast these areas 
will come into compliance?
    Mr. Alteri. It does.
    Mr. Shimkus. You are being succinct. Very good.
    Can you explain the public policy benefit of placing areas 
into compliance regimes for air quality standards they 
otherwise will meet without those new regulatory burdens?
    Mr. Alteri. I didn't necessarily follow that.
    Mr. Shimkus. I was going too fast.
    Can you explain the public policy benefit of placing areas 
into compliance regimes for air quality standards they 
otherwise will meet without those new regulatory burdens?
    Mr. Alteri. No, I think that is a significant burden. We 
just have recently announced a new generation of turbines that 
are going to greatly improve the efficiency of power plants. If 
you find non-attainment areas, then those turbines aren't going 
to be built in New York, and Pennsylvania, and South Carolina. 
And those technology-driven improvements, that is what is going 
to allow us to improve air quality the fastest.
    Mr. Shimkus. Great. Thank you very much.
    Let me turn to Mr. Sadredin. You have proposed revisions to 
the Clean Air Act that would relieve you of some of the 
implementation burdens for ozone and other standards. Would 
those revisions constitute a roll-back of standards you are 
currently implementing?
    Mr. Sadredin. No, Mr. Chairman. There is nothing in the 
bill as proposed that would lead to our region having to roll 
back a single measure that we have in place or hold back our 
progress as we try to meet the standards.
    As you can see in my testimony, to meet the current 
standards we have to get to zero emissions. And once we get to 
zero, I don't think there is much more that we can do.
    Mr. Shimkus. Yes, and that is why I like this cooperative 
federalism approach, because we really do want to trust local 
people on the ground who desire to protect their local 
citizens, but also to make sure that there is an economy that 
can grow and thrive.
    So another question. What is the potential impact on 
economic development and business expansion in your district if 
revisions are not made to the Clean Air Act implementation?
    Mr. Sadredin. Mr. Chairman, the sanctions that are imminent 
at this juncture on San Joaquin Valley will be devastating.
    I do understand that California's economy is growing, but 
our people are not just statistics. Just a year ago, and I am 
not talking about 8 years ago when we were at the depths of 
recession, many communities in our region because of the 
drought conditions and federal water policies putting farms out 
of operation, communities were experiencing 30 percent, 40 
percent unemployment. I personally witnessed people in line for 
food. And I am not talking about your chronic homeless 
individuals, these are people in our region that are already 
suffering significantly. And seeing those faces, I cannot sit 
here before you and say we are OK with imposing billions of 
dollars in economic sanctions on those same people.
    Mr. Shimkus. I understand you have 35 years implementing 
standards in one of the most challenging air sheds in the 
nation. From your experience do you see anything in H.R. 806 
that will make your job to implement the regulations necessary 
to ensure public health protection more difficult?
    Mr. Sadredin. There is nothing in this bill that would roll 
back even a single measure that we have already put in place or 
will hold back anything that we have to do and we are planning 
to do moving forward to meet the current standards.
    Mr. Shimkus. Yes, and I have 40 seconds. I just want to end 
with a story.
    In 1986, I left the military to get my teaching 
certificate. I did that in Southern California at, now 
Concordia University, it was Christ College Irvine. And we 
played a baseball game--I was a pitcher--in Costa Mesa. It just 
struck me, I was pitching a game and I came off the mound, I 
just couldn't breathe. Now, this was '86, and I had no idea why 
because I was very healthy and in pretty good shape.
    I would ponder the question because we do support the Clean 
Air Act. It has been very beneficial in cleaning it up. I don't 
think I would have that problem now in that particular position 
because of the success of the Clean Air Act. We just want to 
make it more workable for today's era.
    And with that, I will now recognize the Ranking Member, Mr. 
Tonko, from New York for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    The Clean Air Act has been an incredibly successful public 
health statute. And I believe that is because it contains a 
clear line of separation between two very important public 
policy questions, the first being what standards must we meet 
to ensure the air we breathe is safe?
    Second, now that we know how clean the air needs to be to 
ensure public health, how do we achieve that standard in the 
most fair and cost-effective manner?
    We have never asked how much clean air can we afford? That 
is why we have made steady improvements in air quality, even as 
the population and the economy have grown. So I am very 
concerned that this bill alters the strict health-based 
standard setting process that has resulted in substantial 
health benefits over the past decades.
    Mr. Karperos, California's topography and climate make air 
pollution control very challenging. But the statistics you 
provide in your testimony are impressive. Do you believe we 
need to change the fundamental process in the Clean Air Act 
that I just described that sets standards based on 
considerations of public health alone?
    Mr. Karperos. Absolutely not, Congressman. Setting the 
standards based on public health gives us a clear mandate where 
and the direction to go. And then the structure within the Act 
allows a deep consideration of the costs and how to get there 
proactively.
    Mr. Tonko. Thank you.
    And, Dr. Boushey, would such a change, allowing costs and 
technological feasibility as considerations in setting 
standards undermine the progress we have been making to clean 
our air?
    Dr. Boushey. I absolutely think so. Some very good examples 
of how the setting of standards stimulated technological 
advances that contribute to the great improvements in air 
quality. There are two that came to mind, one has already been 
mentioned: the really remarkable improvement in large diesel 
engines.
    Siemens, Ford, and Volvo have all made engines that reduce 
particulate emissions by more than 90 percent, and nitric 
oxides similarly remarkably reduced. That was driven by the 
need to meet a standard for protecting human health.
    The electric car, the hybrid cars are another very good 
example. And there are many such examples throughout other 
industries as well.
    So, the setting of standards stimulates technology that may 
not have been known about. We had to face the fact that air 
quality was harming health and then develop the technologies to 
deal with it. And that is how the sequence should progress.
    Mr. Tonko. Thank you. And again, Dr. Boushey, have there 
been a number of recent scientific studies on the health 
impacts of ozone?
    Dr. Boushey. Yes, there has been. Since the setting of the 
2008 standard there have been hundreds of papers, literally, 
that have documented the health effects of ozone. Some are good 
stories, not just bad ones.
    For example, the improvements in the Los Angeles Air 
Quality Basins, there have been three beautiful cohort studies 
with children conducted at USC that have shown significant 
improvements over the last 15 years in the pulmonary function 
of 15-year-olds. They are followed from age 11 to age 15. Over 
three distinct periods as air quality has improved, 
particulates, nitric oxide and ozone, the pulmonary function of 
the children in the Los Angeles area has improved. And that is 
remarkable. You can show that on a population basis.
    Mr. Tonko. And I would think we would all, I would hope we 
all share that common goal, to give our children cleaner air to 
breathe and generations to come to have even cleaner.
    Dr. Boushey. If I can make just a comment, since the Chair 
pitched baseball in Costa Mesa. Correct?
    Mr. Shimkus. That is correct.
    Dr. Boushey. There is a study showing that three-sport 
varsity athletes in Los Angeles are more likely to develop 
asthma, presumably because they are playing hard out of doors 
breathing poor air quality. Now, that was before the recent 
years. And air quality has much improved.
    So your experience of having difficulty breathing after a 
tough inning, that was----
    Mr. Shimkus. It was the only tough inning I ever had. So 
don't get me started.
    Mr. Tonko. Great. Well, let me just jump in. And with so 
many studies being published each year, Dr. Boushey, do you 
think moving the review from every 5 years to 10 years might 
prevent health-based standards from accurately reflecting the 
latest science?
    Dr. Boushey. I am concerned about that. I am going to 
comment on an example, because I was involved in the research 
that demonstrated that very short-term exposures to sulfur 
dioxide can have remarkably severe broncho-constrictive effects 
in people with asthma. We discovered that a subgroup of the 
population, perhaps 8 to 12 percent of the population depending 
on the demographic, have asthma. They are orders of magnitude 
more sensitive.
    That required that we not have an 8-hour standard for 
sulfur dioxide, it required a 1-hour standard. And to wait 10 
years for people with asthma to be protected, that is long. And 
I just have to say it.
    Actually a theme here, I think, is we need greater 
flexibility from the EPA. That is going to be hard for them to 
achieve with a 30 percent budget cut, but we need them to be 
more quickly responsive to advances in science and for 
difficulties encountered by Air Quality Boards.
    Mr. Tonko. I noted Ms. Vehr suggested that the timeliness 
of response from EPA is problematic. What does happen when you 
cut their budget by 31 percent?
    With that, Mr. Chair, I will yield back.
    Mr. Shimkus. The gentleman yields back his time.
    The Chair now recognizes the gentleman from Texas, Mr. 
Olson for 5 minutes.
    Mr. Olson. I thank the Chair. And welcome to all six of our 
witnesses.
    Obviously this issue in H.R. 806 are totally important to 
my district and me. As I have said time and time again, I want 
clean air. My family breathes the air in the greater Houston 
area. When I moved there as a 9-year-old boy in 1972, Houston 
had the dirtiest ozone air in America. Our air is dramatically 
cleaner. And I won't let that progress backtrack.
    My first question is to Mr. Alteri. I would like to look at 
Section 3(b). That section says that if EPA's science advisors 
find a range of options that all protect health, they can use 
achievability to hit the sweet spot. Ranking Member Pallone and 
I debated this section on the floor last year, and his fear was 
that it let EPA set an unhealthy standard.
    I said it then and I say it now, word the language very 
carefully to make sure that EPA can never pick money over 
science. Health was, is, and always will be the most important 
factor.
    So, if the science says we need a standard 65 parts per 
billion to keep people healthy, so be it. But if they say 
anything between 60 and 70 ppb would keep people healthy, which 
happened recently, then my bill says they may, not must, may 
look at what is actually achievable.
    Do you agree with me it is important for EPA to set a 
standard based on health and then we do everything possible to 
make sure states like yours can implement those standards?
    Mr. Alteri. Yes, sir.
    Our mission is to protect human health and the environment, 
so we recognize your bill, the language, the thoughtfulness, 
and the consideration that you put into drafting that language.
    And setting the standard does nothing to improve the air 
quality. Implementing control strategies and achieving those 
air quality standards, that is the improvement and that is the 
protection of human health and the environment.
    Mr. Olson. A second question is for you, Mr. Sadredin. And 
I hope I got close to that pronunciation. All right.
    In your testimony you say that, and this is a quote, 
``currently we are subject to four standards of ozone and four 
standards of PM2.5.'' The Texans I work for back home do their 
best to work with EPA for multiple standards on multiple 
pollutants but they claim health benefits is very, very 
confusing. And some people back home worry the EPA is taking 
health benefits from one standard and using those same benefits 
on another standard; double counting.
    And so do you believe they are double counting? And can you 
talk to me about what having multiple standards for each 
pollutant means to the San Joaquin Valley?
    Mr. Sadredin. Yes. Thank you. As we speak right now, our 
agency is in the process of putting three separate PM2.5 plans 
for just PM2.5. And when you add up all the standards we will 
have about 10 state implementation plans. Our agency alone on 
an annual basis spends about $2.7 billion in just the 
bureaucratic process of putting these plans together. And that 
doesn't include the cost to businesses, to other agencies, 
litigation.
    In terms of double counting, as I show in my written 
testimony that we provided for you, just to meet the 2006 and 
the 2012 PM2.5 standards we have to get enormous reductions in 
emissions, 90 percent. Those same reductions will also get us 
to the ozone standard. So, when you take credit twice for the 
same reductions that, in a way, is a double counting.
    Mr. Olson. And so any way you can get around that? You said 
there is no more growth, none whatsoever in the San Joaquin 
Valley because of these ozone standards that can't be achieved. 
Well, you can't control that, but also with double counting.
    Mr. Sadredin. No, I agree with my colleague from California 
that meeting these standards is achievable. It is just a 
question of time. We just need the time for the technology to 
be developed, for the funding, for the resources to be there to 
put these measures in place. Right now these artificial 
deadlines in the act do not provide the time to do that.
    Mr. Olson. This bill gives you that time.
    I yield back.
    Mr. Shimkus. The gentleman yields back his time.
    The Chair now recognizes the gentleman from California, Mr. 
Peters, for 5 minutes.
    Mr. Peters. Thank you, Mr. Chairman. And this week in 
particular I want to say thank you for having a hearing on this 
bill. It is certainly helpful to inform us about, about the 
proposal.
    I want to start with Mr. Cone. And, Mr. Cone, I want to ask 
you a question as a state implementer. You talked a lot about 
the difficulty of dealing with delays in EPA's implementation 
of standards, et cetera. Can you explain to me just as a 
practical matter how that makes things tough on you to do your 
job?
    Mr. Cone. As trying to figure out what standards and how to 
permit facilities you have to determine whether these standards 
apply today. Are you going to have to do something tomorrow? 
With the levels continuing to go down, a company wants to 
figure out what is going to meet the regulation so they have 
certainty for the future. As this continues to change, they 
have to continue to change. Well, if I put this control in 
today will this be good 5 years from now? It may, it may not 
be.
    Those are some of the things that we, as regulators, have 
to work with our customers to figure out what is appropriate, 
what is practical, and what will be effective.
    Mr. Peters. My understanding is that this proposal 806 
doesn't require EPA to be any more timely with that kind of 
thing.
    Mr. Cone. No, it doesn't. You need to come up with 
implementation plans when the standard comes out.
    Mr. Peters. Right. So one, one way to deal with a very 
legitimate concern would get EPA to be on time and be more 
timely. That would at least address part of the problem with 
what you are concerned about with the 5-year period. Is that 
right?
    Mr. Cone. Correct.
    Mr. Peters. Yes. I think we would all agree on that, too. 
And I hope that the administration will take that to heart as 
it considers its budget proposals for EPA because removing 
resources is just going to make that even more difficult for 
these folks.
    I would ask Mr. Karperos to--and probably your own 
process--but Mr. Sadredin from San Joaquin Valley came up with 
a very different view of these rules than you did. Would you 
like to respond to him? And I am going to give Mr. Sadredin the 
same opportunity. He basically alleged that, he suggested that 
attaining these things might be actually infeasible. And do you 
have a response to his concern?
    Mr. Karperos. The California Air Resources Board absolutely 
doesn't believe that attaining any of the standards is 
infeasible. By using, by looking forward to the standards that 
EPA has set, considering your control strategy as a whole for 
PM ozone--NO<INF>x</INF> that is going to form a particle in 
the air is the same NO<INF>x</INF> that is going to form 
ozone--you can develop an integrative strategy that distributes 
the control responsibility across all of the sources, reduces 
the cost, and in a feasible way brings you to the emission 
levels you are looking at.
    The numbers that Mr. Sadredin was referring to, we are in 
technical discussions about the what it will take to attain the 
standards, my agency and his. My agency has mapped out what we 
believe is a much more feasible strategy that wouldn't require 
us to have no-drive days, that type of thing, but in fact would 
require us to move towards a cleaner fleet that's available 
today.
    Mr. Peters. What about his concern that he doesn't have 
enough time to do this. Are you able to accommodate that within 
the current regulatory regime?
    Mr. Karperos. It's a very good question. My agency tomorrow 
will consider a plan that will lay the regulatory groundwork 
for attaining the PM standards of the ozone standards in the 
state. We will need to come back and consider options for 
accelerating the turnover of the motor vehicle fleet, for 
example. That will require incentives.
    Mr. Peters. I don't have a lot of time and I want to get to 
Mr. Sadredin, too. But do you have the authority in CARB to 
give them more time if they need it?
    Mr. Karperos. We have the ability to develop a plan that 
EPA could look at and grant more time.
    Mr. Peters. Mr. Sadredin, he gave some pretty positive 
statements about the current regulatory regime for the State of 
California. Would you like to respond to those?
    Mr. Sadredin. Yes. Actually, we are in agreement that these 
standards are achievable. It's just a question of time.
    For instance, the deadline that we are facing right now is 
that by 2019 we have to reduce our air pollution by 90 percent. 
And this is in California where we have already imposed the 
toughest regulations on the stationary sources, cars and 
trucks. It's just a question of time. ARB cannot give us more 
time under the construct of the Clean Air Act as it is written 
right now.
    Mr. Peters. I appreciate all the witnesses being here. And, 
Mr. Chairman, I yield back.
    Mr. Shimkus. The gentleman yields back his time. Thank you 
for his questions.
    The Chair now recognizes another gentleman from Texas, Mr. 
Flores, who is very involved in this issue, for 5 minutes.
    Mr. Flores. Thank you, Mr. Chairman. I appreciate having 
this hearing. Also I appreciate all of the witnesses for 
showing up today.
    Mr. Alteri and Mr. Sadredin, I have my first question will 
be for you two. The EPA estimates that annual costs for ozone 
standards outside of California will be $1.4 billion annually 
beginning in 2025. Last year in a hearing like this Dr. Bryan 
Shaw testified that the EPA only includes industry's costs in 
their analysis, not the states' cost or taxpayers' cost, nor do 
they look at economic impacts like increased electricity costs.
    So, Mr. Alteri, to the extent that there are additional 
costs, how do these impact other pollution control priorities 
in your agency?
    Mr. Alteri. Thank you. The rise in rates of electricity 
prices is a key concern of ours as a manufacturing state. And 
just a incremental change in the electric prices will drive out 
manufacturing industries. And they won't relocate in 
Connecticut or New York or in the Northeast, but rather they 
will go to international areas where there isn't afforded as 
much environmental protection. So, we do have those concerns.
    As far as the ozone standards and how they can affect us, 
they could limit the potential for economic growth. There are 
very few major stationary sources that want to locate in a non-
attainment area. And so we are concerned about the limiting of 
economic growth.
    Mr. Flores. OK. And you were looking forward, to the extent 
that there are additional costs, how these impact other 
pollution control priorities of your agency. I think you have 
answered that.
    Mr. Sadredin, based on your experience will there be costs 
to state and local government agencies like yours under the new 
ozone standards before 2025?
    Mr. Sadredin. Well, as I said, with the double counting of 
what you need to do for various standards, right now what is 
before us to attain the PM2.5 standards will be also 
sufficient, if we can achieve it, to meet the ozone standard.
    Last week at our governing board meeting we presented the 
plan, very ambitious, makes a lot of sometimes unrealistic 
assumptions about what is doable. The costs to our region to 
get some of the reductions that we need, and still not 
sufficient, is $52 billion in San Joaquin Valley.
    Mr. Flores. Wow.
    Mr. Sadredin. And then when you add to it the bureaucratic 
cost that does nothing to improve air quality, $2.7 million a 
year just our agency spending on staffing and rewriting these 
plans in a perennial, continual planning mode, all of those 
dollars could go to actually reduce air pollution. And that 
would make our residents' quality of life better if we didn't 
have to do all this every, every year.
    Mr. Flores. That is pretty compelling.
    Under the Clean Air Act, the EPA currently must review the 
National Ambient Air Quality Standards every 5 years. For the 
2008 ozone standards the EPA issued the standards in March of 
2008 and began reviewing it in the fall of 2008. And H.R. 806 
would extend the mandatory 5-year review period to 10 years, 
although the administrator would still have discretion to 
revise the standards earlier.
    When I drafted this part of the legislation, the reason we 
picked 10 years was because that was the agency's history of 
actually meeting the mandatory standards. They were not meeting 
their only standard--their own standard. They had a history of 
doing it since the beginning of the Clean Air Act. So all we 
are doing is matching the law to fit what their actual 
standards have been. But, we have also said that if the 
administrator wants to review earlier, they can.
    So it is hard for me to see that there should be complaints 
about that.
    So, Mr. Alteri, from your perspective is the current 5-year 
review cycle practical for either the EPA or the states?
    Mr. Alteri. No, sir. EPA----
    Mr. Flores. Mr. Cone? I have got limited time.
    Mr. Cone. No, sir.
    Mr. Flores. OK. Ms. Vehr?
    Ms. Vehr. No, sir.
    Mr. Flores. Thank you for taking care of the air quality in 
my birth state by the way, so.
    Mr. Boushey?
    Dr. Boushey. I am not an expert on that. I think as science 
shows the important, new, dramatic effects we have to have the 
flexibility to do that.
    Mr. Flores. The administrator has the ability to do that.
    Mr. Sadredin?
    Mr. Sadredin. The experience does not indicate that EPA is 
able to do that every 5 years anyway.
    Mr. Flores. Mr. Karperos? I didn't mean to pass you.
    Mr. Karperos. We think 10 years is too long.
    Mr. Flores. OK. But that is what the EPA has been doing. 
And the EPA Administrator has the flexibility under 806 to move 
forward.
    Mr. Cone, in your testimony you indicate that extending the 
5-year review cycle to 10 years would more closely align with 
what the EPA does in practice. You said that. Can you say why 
that would be reasonable to do something like that?
    Mr. Cone. I didn't quite catch the last part.
    Mr. Flores. I am sorry. I says in your testimony you 
indicated that extending the 5-year current review cycle to 10 
years would more closely align with what the EPA has done in 
practice, which we have just talked about. Can you elaborate 
why this would be reasonable to do that, to extent it from 5 to 
10 for the mandatory review?
    Mr. Cone. Well, again, if EPA would come out with these 
implementation standards we would be able to probably get 
cleaner air quicker.
    Mr. Flores. Right.
    Mr. Cone. But EPA has to turn around and reinvent and try 
to figure out how to do things differently to come up with 
these implementation standards.
    Mr. Flores. Thank you. I yield back the balance of my time.
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes the gentleman from Texas Mr. Green 
for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman and Ranking Member, for 
holding this important hearing. And I want to thank our 
witnesses for being here today.
    It is no secret, in Houston we have air quality challenges. 
The region currently sits at 80 parts per billion, which is 
still above the 2008 ozone standard, so we need a little more 
time. That being said, we have come a long way since the 1970s 
when our ozone measured 150 parts per billion.
    And I think today's discussion is a valuable exercise. And 
while I do not support the majority's legislation, I think 
there are reasonable efforts that can be made to improve the 
implementation of NAAQS.
    Mr. Karperos, we have repeatedly discussed the issue of 
technical feasibility and economic achievability. The Supreme 
Court has stated that the most important form for consideration 
of technological and economic reforms is before the state 
agency. Does your agency consider technological feasibility 
when drafting a SIP.
    Mr. Karperos. Absolutely we do, sir. For the plan we are 
adopting tomorrow we did 10 deep dives on different mobile 
technologies.
    Mr. Green. Does you agency consider the cost-effectiveness 
when selecting emission control options to meet the new NAAQS?
    Mr. Karperos. Yes, we do. And we also do economy-wide 
modelings so that we understand the ripple effects throughout 
the economy.
    Mr. Green. Does your agency accept the input from districts 
like the San Joaquin Valley in the adoption of the costs in 
technology and standards?
    Mr. Karperos. Absolutely. Under state law it is very much a 
partnership for developing SIPs in the state of California 
between the air districts and the California Air Resources 
Board.
    Mr. Green. Director Sadredin, if the state can already 
consider costs and technology when drafting a SIP, why is this 
sufficiently flexible or not sufficiently flexible to meet the 
new requirements?
    Mr. Sadredin. That is an excellent question because that is 
what often comes up because Clean Air Act does say you can 
include cost-effectiveness, economic feasibility in the 
implementation phase.
    The problem is that 40 years later after the Act passed, 
today the deadlines that we face, if your deadline to meet the 
standard is 10 years and there is no way that you can go beyond 
that, how can you do a meaningful cost-effectiveness analysis 
if in our region or in your region the technology that you 
need. Billions of dollars that we need to spend on having the 
fleet turnover that is necessary, if that is not possible to do 
within that time line it is not a meaningful cost-
effectiveness, economic feasibility analysis that we can 
actually do.
    Mr. Green. Administrator Vehr, in February 2014, NASA's 
Global Modeling and Assimilation Office, the GMAO, conducted a 
study of western states which used satellite data to monitor 
stratospheric intrusions. NASA and the EPA have acknowledged 
that intrusions can cause ozone to rise above the 70 parts per 
billion level, especially in the summer months. Welcome to 
Houston. If the ozone rises above 70 parts per billion due to 
background ozone, does the statute provide a regulatory relief? 
And has Wyoming previously applied for regulatory relief?
    Ms. Vehr. The statute allows the state to submit something 
called an Exceptional Event Submittal. And under those 
Exceptional Event Submittals they are very time consuming. It 
takes about a year to prepare one for stratospheric ozone 
intrusion.
    Wyoming has been the only state in the nation to have had a 
stratospheric ozone intrusion exceptional event approved. And 
we have had four down to EPA that have not been acted on.
    So, the Act provides for stratospheric ozone intrusion and 
other exceptional events, but the cost to prepare those, and if 
they are not acted on the consequences of that data being used 
in modeling and other events, is problematic.
    Mr. Green. Thank you. In your testimony you stated a one-
size-fits-all to ozone is not good for Wyoming. And, of course, 
in Texas we would probably say the same thing. You also stated 
the alternative tools and methods are critical for areas like 
Wyoming. In response to the NASA study, EPA is forming a 
working group of scientists and air quality managers to 
identify intrusions using a variety of new and different tools.
    Was Wyoming invited or participated in that group?
    Ms. Vehr. Wyoming has been involved with our EPA Region 8. 
I don't know about that particular group. But we have been in 
discussions on stratospheric ozone intrusion. And we welcome a 
meaningful collaboration with federal partners. We look at this 
as a federal-state partnership, and it should be collaborative 
and it should be meaningful discussions.
    Mr. Green. EPA acknowledged the burdens of the regulatory 
relief associated with events, and these working groups were 
able--I don't know if these working groups were able to 
implement any change. Do you know anything about that?
    Ms. Vehr. The working groups I do not.
    Mr. Shimkus. The gentleman's time has expired.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Shimkus. The Chair now recognizes the gentleman from 
Michigan, Mr. Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman. And thanks to the 
panel for being here to assist us in understanding better.
    Mr. Alteri, one of the primary concerns that I have heard 
about the 2015 ozone standard level is that it could limit 
investment in domestic manufacturing, including the steel 
industry moving forward. And that is a big issue in my district 
in Michigan. Mainly that the regulation could limit companies 
from making key investments for plant improvements or 
expansions in the future. These are the type of investments 
that I believe Congress and the administration should support 
and make ways for.
    Could you share your thoughts on this concern and whether 
you have a similar perspective on the 2015 standard?
    Mr. Alteri. Yes, sir. The stringency of the standard will 
create more non-attainment areas or projected non-attainment 
areas. Ms. Vehr had mentioned the modeling that is used in 
these analyses. The photochemistry of ozone creates severe 
complications. And if you can see, we have done an extra job in 
reducing PM2.5 ozone and SO<INF>2</INF>. But NO<INF>x</INF> and 
ozone are more difficult.
    But any time you have those non-attainment areas you are 
going to employ the lowest achievable emission rate with the 
best and most stringent controls, without taking into account 
cost and technical feasibility. So, it will limit opportunities 
for growth.
    Mr. Walberg. And sometimes it is apparent, through no fault 
of the area or the city or the communities in the process. And 
almost like there is no way to get out of it.
    Mr. Alteri. Yes, sir. That is the way we feel.
    Mr. Walberg. Let me ask as well, Mr. Alteri, it is clear 
that one of the major priorities of the Trump Administration is 
investment in infrastructure, whether that be for 
transportation, energy, or other purposes. But one aspect of 
the debate on the infrastructure that needs, I believe, more 
discussion is the potential effect that federal regulations 
might have.
    And so, from your state and location points of view do you 
view the 2015 standard for ozone, NAAQS, as a regulation that 
could be harmful in making investment in infrastructure that we 
sorely need?
    Mr. Alteri. Mr. Sadredin had mentioned the sanctions that 
are associated with non-attainment areas. And they would apply 
to highway funds.
    Yesterday I got to speak in Cincinnati. The northern 
Kentucky area is our historic non-attainment area. And what we 
need is investments in bridges and roads to open up those 
corridors. I am from Kentucky, so my first 7 miles of the trip 
I might see one or two cars in the morning on my commute. But 
you go outside and you see many, many points of emissions 
sources just standing in traffic.
    I really think the infrastructure funding and development 
would greatly ease that burden in the Cincinnati-Northern 
Kentucky area. We do need to build bridges and open up the 
corridors.
    Mr. Walberg. Ms. Vehr, I look forward to riding my Harley 
out in your state this summer for a week, breathing that fresh 
air. The 2015 ozone standard immediately applies to prevention 
of significant deterioration permits that businesses need to 
grow and create jobs. That means businesses will have to 
immediately show their projects meet the 2015 ozone standard, 
something hard to do in an area that already fails it, as has 
been mentioned.
    Would PSD permit relief help economic development for the 
new non-attainment areas in your state?
    Ms. Vehr. Yes. We currently have one non-attainment area 
for ozone and PDS relief where their certainty provides relief 
to businesses.
    Mr. Walberg. And certainty, define that a little bit more? 
What that looks like?
    Ms. Vehr. Certainty is tied to what the standard is and 
what is the controls and technology needed to achieve that 
standard. And that allows businesses to evaluate those 
opportunities. We have had that experience when businesses come 
to look at our state, they like that we have clean air. And so 
having that certainty in the surrounding ozone is beneficial.
    Mr. Walberg. Thank you. And I yield back.
    Mr. Shimkus. The gentleman yields back his time.
    The Chair now recognizes the gentleman from California, Mr. 
McNerney, who has been patiently waiting, for 5 minutes.
    Mr. McNerney. I have been. Mr. Chairman, I thank you for 
this hearing. And it is very informative, so I am having fun 
here. So thank you for participating.
    Mr. Seyed, the target of the Air Shed Grant Program is at 
risk with the EPA's proposed cuts. If this program were 
eliminated how would it impact your work and the health of the 
people in the valley?
    Mr. Sadredin. Thank you, Congressman McNerney. I want to 
publicly express my gratitude for your help over the years to 
bring resources to the valley for these incentive-based 
programs that are critical to get the reductions that we need 
much more quickly, and also do it in a way that is helpful to 
our economy.
    In San Joaquin Valley we need incentive funding in the 
order of about $2.8 billion, billion with a B. And any 
reduction in those areas will be devastating to our efforts. In 
fact, we need those areas to be enhanced and more funding needs 
to be dedicated to those good programs.
    Mr. McNerney. Thank you.
    Mr. Cone, in your opinion would reducing the EPA's budget 
reduce regulatory uncertainty?
    Mr. Cone. It is possible that the EPA could look and 
strategize better what the resources are and reinvent 
themselves to be focused on that. I think it is an opportunity 
to look at how things are done and drive improvement. But the 
public deserves to know what is going on. And it gives the 
opportunity for EPA to show their value. And with those cuts 
that could be done.
    Mr. McNerney. It will show their value by not providing the 
services that they provide.
    Mr. Karperos, your testimony was pretty stark. In your 
opinion, what is the progress that has been made in the valley?
    Mr. Karperos. Absolutely remarkable. Mr. Sadredin referred 
to some of the statistics in terms of the improvement in air 
quality. I think we are truly at a cusp where with the right 
investment, the continued support of EPA with incentive 
dollars, as Mr. Sadredin spoke to, we can achieve those 
standards within the current deadlines of the Clean Air Act.
    Mr. McNerney. Do you believe that the current ozone levels 
in the valley are primarily from sources outside the district's 
ability to control?
    Mr. Karperos. This has been an issue that has been studied 
in great depth. And the bottom line is the high ozone levels we 
have experienced in the valley are homegrown. They are from 
emissions from within the valley.
    Mr. McNerney. OK. Mr. Seyed, do you have any suggestions or 
recommendations on how the Clean Air Act could help reduce 
pollution that is not in the district's control?
    Mr. Sadredin. Right, and I believe Mr. Karperos was 
referring to pollution transferred from other areas. And your 
question was the regulatory authority over 85 percent of the 
pollution that we do not have. I think with respect to that for 
ozone, there is no disagreement.
    What we are asking today of this committee is that an 
overriding provision be included in the act, or in some other 
independent legislation, that says areas that are impacted by 
pollution from sources outside their regulatory authority will 
not be punished with devastating economic sanctions if they 
have done everything that they can do for sources of air 
pollution under their control.
    Mr. McNerney. Right, and I understand that. But what can be 
done to reduce pollution sources that are not in your control?
    Mr. Sadredin. We have petitioned the Federal EPA to adopt 
national standards. We are asking the state Air Resources Board 
to do more with some of the limited authority that they have 
compared to the Federal Government with mobile sources. And we 
are hoping that ARB will ultimately deliver on that. We are 
hoping that the Federal Government, if this is a standard that 
they want to impose on local areas, that they do their part for 
sources of air pollution that are of interstate commerce 
restrictions fall under their jurisdiction.
    Mr. McNerney. So, and I mean that sort of expands the 
authority of the Clean Air Act, what you are proposing?
    Mr. Sadredin. We are just asking for a fair application of 
the Clean Air Act. Ask us to do everything that we can, but 
when we have reached a point of diminishing returns and also 
the physical impossibility to get the reductions that we need, 
the Federal Government has to do its part, state government 
needs to do its part.
    Mr. McNerney. Last September the EPA issued updated 
exceptional event guidance, further acknowledging the impact of 
droughts on air quality stagnation. What is your view on the 
updated guidance?
    Mr. Sadredin. It improves the process slightly. But we 
think there is still a big problem with a region like ours when 
you experience 100-year drought conditions. You cannot use that 
as an exceptional event to say there is nothing that we could 
do. It overwhelmed everything, every measure that we had in 
place in our area. We still need some enhancement in that area.
    Mr. McNerney. Mr. Karperos, you looked like you wanted to 
say something.
    Mr. Karperos. Yes. Thank you.
    Even in drought conditions construction workers need to 
work outside. In the San Joaquin Valley farm workers need to 
work in the field. They will be exposed to the ozone that has 
been exacerbated by manmade climate change in the drought 
condition. There are reasonable actions we can take. The 
Exceptional Event Policy should be transparent, and it should 
be detailed because we are talking about public health here. 
The issue is not whether or not you should excuse the drought, 
the issue is whether or not we are taking all the reasonable 
steps we can to protect human health.
    Mr. McNerney. Thank you.
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes Dr. Ruiz from California for 5 
minutes.
    Mr. Ruiz. All right. Thank you, Mr. Chairman.
    We are here today to consider legislation that, quite 
frankly, may make life worse for millions and augment people's 
suffering from long illnesses. Air pollution exacerbates 
asthma; stunts lung development in children; increases risks 
for infections; increases risks of heart attacks, strokes, and 
even premature death.
    Nationally, there are an estimated 9,330 deaths every year 
because of air pollution. And I want to let that sink in 
because we lose nearly as many people to the exacerbation of 
illnesses due to air pollution as we do to drunk driving.
    Riverside County, on the eastern Riverside in Coachella 
Valley, which is very much like the San Joaquin Valley, and our 
economy is dependent on agriculture, where I am from and now 
represent, ranks among the worst in the nation for ozone 
pollution. The Inland Empire in Southern California of which 
Riverside County is a part, also has some of the country's 
highest levels of PM10s, those tiny particles emitted from 
chemical factories and vehicles that can penetrate the lung-
blood barrier entering directly into the bloodstream and 
poisoning our communities and our relatives and our families.
    As a physician, I care very deeply about the health of our 
communities and the public health hazard that air pollution 
poses. And the fact is, respiratory illnesses caused by air 
pollutions are preventable if we have the proper safeguards in 
place, if we have the proper resources that our agencies need, 
if we have the right protections in place and the right goals, 
and the assistance to build a capacity to those safeguards like 
those in the Clean Air Act.
    Since 1980, nationwide ozone levels have declined by about 
a third thanks to the Clean Air Act protections which target 
emissions from cars, factories, consumer products, and other 
pollutant sources. As technology improves, we have an 
obligation to update our ozone standards to further reduce air 
pollution and save more lives.
    And it is precisely the lives of the working families and 
the poor, Mr. Sadredin, that we--who face the highest burden of 
those illnesses, who don't have access to doctors or medicines, 
and who have the highest risk of having asthma and COPD and 
emphysema. It is not for them that we should reduce the 
regulations and the protections so that they can have a job in 
which they will maybe even, they will make minimum wage, and 
where the CEOs of these corporations will make big, it is 
precisely for them that we need to protect the air because they 
will have the highest burden of illnesses because of the 
health, the lack of the protections in our air quality.
    So, this bill would delay it for 10 years. And heard that 
it is because that is what the EPA did, so we will do it in 10 
years. But when we cut the EPA's budget even further it is 
going to be another 20 years before they can get some of these 
things done. And so, in 5, 20 years, are we going to keep 
delaying it and delaying it? Well, that is counterintuitive for 
us in order to be able to find the needs that we need and the 
resources that we need to help improve our health.
    Dr. Boushey, can you speak to the healthcare costs or the 
cost savings of these protections?
    Dr. Boushey. Thank you for the question.
    We have actually run a calculation of what would be the 
health impacts of improving on the 2008 standard of 75 to the 
2015 standard of 70 parts per billion. On a national scale we 
would save 1.5 million lost days of work and school. And I 
think those school days ought to be counted double because so 
often both parents are working, and when your 9-year-old with 
asthma is home sick, you are out of work for the day or three 
days, however long it takes to recover.
    That's 1.5 million from the patient, of patient days lost 
to work or school. Two thousand hospitalizations. This is just 
from the 5 ppb change, 75 to 70. And prevention of an estimated 
500 deaths. So, we have talked so much about the costs of 
implementing air quality measures to achieve better air 
quality. We should look at the value of returns, and they are 
substantial.
    Incidentally, 45 percent of these improvements are in the 
State of California because they have a big population with a 
lot of air quality problems.
    Mr. Ruiz. Yes.
    Dr. Boushey. So, I think that is responsive to your 
question.
    Mr. Ruiz. Absolutely. And I think that, unfortunately, as 
policy makers we don't really count the cost savings for 
preventable illnesses when we can clean the air or have some of 
these policy decisions.
    I have taken care of very sick kids who are poor, who live 
in farm worker communities. I have seen the face of what the 
exacerbation of asthma can be.
    Dr. Boushey. I care for people of minority ethnicities 
living in inner cities, like in Oakland, who are 28 years old. 
They would love to work. They are well educated, want to work, 
but they can't because they are so often in the emergency room 
for asthma.
    Mr. Ruiz. I hear you.
    Dr. Boushey. It is a real problem.
    Mr. Ruiz. I hear you.
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes the gentleman from Mississippi Mr. 
Harper for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman. Thanks to each of you 
for being here. And I will direct these questions to Mr. Alteri 
and Mr. Cone. And either or both of you may respond.
    Concerns have been raised before this committee regarding 
the impacts of new ozone standards on permitting for new 
construction and expansions. So, can you explain how the 2015 
ozone standards immediately impact PSD permitting?
    Mr. Cone. In Maine we are part of the Ozone Transport 
Region. Maine is treated as a non-attainment area even though 
we are in attainment for all standards. Any time we have an 
exceeding it is due to transport.
    We have received and applied for nitrogen oxide waivers. 
Those have been granted.
    We had in the process a VOC restructuring of the regulation 
that would have offered regulatory relief to two facilities 
that had applied for expansion in the state. Due to the fact 
that EPA did not get this process, and then the new standard 
was being proposed, they said we will not finish processing 
this.
    Since that time one facility has gone out of the business, 
the other facility has gone through bankruptcy. That is the 
reality of what is going on in Maine.
    Mr. Harper. Mr. Alteri?
    Mr. Alteri. It has the potential to limit economic growth 
and development. It is real simple. When a new project submits 
an application we do the analysis. And if it shows that it is 
going to be in a non-attainment area of cause or contribute to 
a violation, then there isn't an opportunity for you to 
evaluate the control technologies based on cost or technical 
feasibility.
    Mr. Harper. Let me ask both of you, will the new ozone 
standard impact the ability of new sources to obtain pre-
construction permits?
    Mr. Alteri. Yes.
    Mr. Cone. Yes.
    Mr. Harper. All right. Do you expect that the new ozone 
standards may delay the processing of pre-construction permit 
applications?
    Mr. Alteri. Yes.
    Mr. Harper. All right. You agree? OK.
    Another: do you also expect that it may delay the ability 
of states or EPA to approve permit applications going forward?
    Mr. Alteri. Yes, and environmentally beneficial projects as 
well.
    Mr. Cone. Yes, and what we have seen time and time again, 
when companies invest in their facilities you get cleaner 
emission units. And if you put barriers up to those investments 
you won't get cleaner units.
    Mr. Harper. And for the others on the panel for other state 
and local regulators, would you like to comment on the impacts 
of the 2015 ozone standards on the impacts on pre-construction 
permitting? Anybody else, the permit question?
    Mr. Karperos. We haven't experienced in California that the 
setting of these standards has hindered us in our ability to 
offer permits.
    Ms. Vehr. This is Nancy from Wyoming, and what helps 
companies is know what standard they are held to. So, when you 
have that certainty that you are held to the current standard 
and you have a complete application in place----
    Mr. Harper. Right.
    Ms. Vehr [continuing]. Sometimes these applications take 18 
months to do the technical analysis, and so knowing what that 
standard is when it is permitting is helpful.
    Mr. Harper. Thank you very much.
    Mr. Sadredin, may I ask you a question, please. Is it 
correct that under the Clean Air Act states and local 
governments can become subject to fees or monetary penalties 
due to emissions outside their control?
    Mr. Sadredin. Right. That is exactly the situation that we 
are experiencing right now with the 1-Hour Ozone Standard which 
was revoked by EPA. But old standards never go away the way EPA 
regulations work. Valley residents are paying about $29 million 
in penalties every year right now because of the valuation of 
that standard. But we, by the way, fortunately you have heard 
we have attained now, but it is a long process to remove those 
penalties.
    As we move forward with the new standards today, we are in 
a position of costly, devastating federal sanctions are 
imminent in San Joaquin Valley for the standard that lies ahead 
in terms of PM2.5, as I have described in my written testimony.
    Mr. Harper. OK. And I know my time is almost over. But are 
mobile sources a particular concern in your air quality region?
    Mr. Sadredin. In San Joaquin Valley the stationary sources, 
which include agriculture, oil and gas production, your ma and 
pa operations, all the way to your biggest manufacturing, they 
make up only 15 percent of the pollution now because we have 
imposed the toughest regulations in the nation on them. Right 
now, despite great work at the state Air Resources Board, the 
truck regulations and all of that, today 85 percent of our air 
pollution in our region comes from mobile sources which we have 
no regulatory authority over.
    Mr. Harper. OK. Thank you very much. And my time has 
expired. I yield back.
    Mr. Shimkus. The gentleman yields back his time.
    The Chair now recognizes the gentleman from California, Mr. 
Cardenas, for 5 minutes.
    Mr. Cardenas. Thank you very much, Mr. Chairman. Appreciate 
the opportunity for us to explain to the public how important 
this issue is.
    One of the unfortunate aspects of what we are talking about 
today is the most costly effects are not immediate and they are 
long term, and they are not just about quantitative, it is 
quality of life that we are talking about as well. So this 
makes it a very esoteric conversation.
    Yet, at the same time it allows us to either focus mainly 
on how does it affect the day to day and today, especially when 
it comes to pointing out the difficulties of businesses. And 
sometimes businesses find themselves in a quandary, and maybe 
even go out of business while they are waiting to find out 
their future and what is at stake here in this particular 
matter.
    Yet, at the same time if we were to, unfortunately, become 
too lax and relaxed about requirements and protecting the today 
and the tomorrow, then we could find ourselves with burdening 
costs that are just unquantifiable, as a matter of fact. 
Unquantifiable not because they are too small, but 
unquantifiable because they are just so massive and the effects 
are so negative that it is something that we can only admit 
afterwards that, wow, we screwed up, we made a mistake, we were 
too lax.
    In Los Angeles where I represent, in the L.A. Basin, it has 
some of the worst air pollution in the country. And L.A.'s 
geography, weather, and huge number of vehicles makes us ground 
zero for ozone pollution. When ozone levels pike, so do 
hospital admissions for things like respiratory infections and 
asthma.
    Since 2000, ozone levels have decreased by 30 percent in 
the L.A. Basin through a combination of local, state, and 
federal efforts. But the region still doesn't meet federal air 
quality standards. Plans to deal with this problem have often 
been vague and long-term strategies to reduce emissions.
    I think what we need to do is to try to incentivize 
companies and individuals to switch out polluting technology 
for cleaner, currently-existing technology, and invest in 
research to develop better technology.
    Mr. Karperos, can you please tell me what is currently 
being done to incentivize these new technologies?
    Mr. Karperos. When we, the California Air Resources Board, 
assessed the need for cleaner trucks, for example, some 5 or 6 
years ago, we identified that a modification and optimization 
of existing technology would reduce emissions from tucks by 90 
percent. We have adopted a standard, an optional standard to do 
that.
    Tomorrow we will make a commitment to adopt a regulation to 
ensure that all trucks sold in California meet that standard. 
And then we are pairing that up with large incentive dollars to 
accelerate the turnover of that fleet.
    If I may very briefly to the question of fees on businesses 
in the San Joaquin Valley, those fees are actually levied on 
vehicle registrations, so it is paid by motorists. And that 
money is turned right around and used to support the incentive 
turnover of trucks, so it is actually getting right at mobile 
sources.
    Mr. Cardenas. So you just described that the government 
actually, you said, incentivizes. Incentivizes by patting them 
on the back and then a little certificate? What do you mean by 
incentive?
    Mr. Karperos. Offering financial incentives to accelerate. 
They would not be able to purchase a new piece of equipment as 
quickly as required under the Clean Air Act timelines. We offer 
up money that helps them purchase that piece of equipment 
sooner.
    Mr. Cardenas. Oh, OK. So incentivize with actual real 
dollars.
    Mr. Karperos. Yes, sir.
    Mr. Cardenas. So that people can do the right thing, 
corporations or individuals can do the right thing, and at the 
same time they can get some help in actually doing the right 
thing?
    Mr. Karperos. Absolutely.
    Mr. Cardenas. OK. Does anybody on the panel want to give an 
example of how perhaps those incentives are unwelcomed or 
inadequate? I knew it was going to be you. Go ahead.
    Mr. Sadredin. Yes. We believe there is a greater need for 
the level of funding that is available right now. In our region 
alone, over the last 10 years, we have spent $1.6 billion in 
public/private funding for incentive measures to reduce air 
pollution and also invest in the economy. It has reduced air 
pollution in our region by over 130,000 tons.
    We still have major challenges. We need another 90 percent 
reduction in emissions. And, if anything, we need more funding 
in that area to both improve air quality but also help the 
economy.
    Mr. Cardenas. So what you just described, are you 
describing that as a positive or a negative?
    Mr. Sadredin. It is positive, but the negative part of it 
is that the resources have not been enough. We need more 
assistance from the state and Federal Government at the local 
level to be able to do this.
    Mr. Cardenas. OK. So, in a nutshell, you would welcome 
these stringent requirements if in fact there was more support 
to actually meet those requirements?
    Mr. Sadredin. The support and also the time to do it. Let's 
say I get $3 billion every year for the next 3 years for our 
region, it just takes time to be able to turn over 78,000 
trucks, 300,000 vehicles. We just need to have the time and 
resources to do it.
    Mr. Cardenas. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes the gentlelady Ms. Matsui for 5 
minutes.
    Ms. Matsui. I hope that is a compliment, Mr. Chairman.
    The Clean Air Act provides clear and well-documented public 
health and environmental benefits. This is the very first point 
that is considered when discussing the Clean Air Act and ozone 
regulations. The law has improved the lives and the health of 
so many Americans.
    The American Lung Association reports our nation's air 
quality has continued to improve over the last few decades. But 
despite the great strides we have made, we have a long way to 
go. Clean air is not a luxury. Breathing is not optional. We 
all need clean air to live. We, in Congress, should be 
facilitating the federal partnership with local agencies that 
want to improve air quality, not hindering it.
    Mr. Karperos, I am glad to hear that many of the regions 
across our state are not delaying efforts to improve air 
quality, but instead seizing the opportunity to create a 
healthier environment for Californians. But I know that some 
Californians benefit from these air quality improvements more 
than others. Are there certain populations in the state, even 
within the same region, whose health benefits more from air 
quality improvements? Do the disadvantaged and minorities feel 
the impacts of bad air quality to a greater degree than others?
     Mr. Karperos. Thank you for that question. That is a very, 
very important question.
    We have made significant progress in California in terms of 
lowering pollution. But let me give you sort of a fact, the 
major, the still disproportionate impact we see on 
disadvantaged communities.
    My agency did a detailed analysis that showed in about 2000 
that residents of disadvantaged communities, low income of 
color, were exposed to about three times as much diesel PM, 
cancer-causing diesel PM, than people who lived in wealthier 
communities. We have reduced that considerably, but it is still 
two times the exposure to diesel PM if you live in a 
disadvantaged community compared to a wealthier community.
    Ms. Matsui. While the Clean Air Act's science-based 
standards are very important, I also believe that other EPA 
programs that provide a federal partnership for improving air 
quality are critical. I am particularly supportive of the EPA's 
Diesel Emissions Reduction Act grant program, or as we call it, 
DERA, which has helped clean up and retrofit diesel engines in 
Sacramento and every state across the country.
    I am very concerned by the administration's move to slash 
funding for these types of important programs. Have you found 
that federal funding in programs play an important role in 
CARB's work? Which federal programs have been the most vital?
    Mr. Karperos. There are a number of programs that I want to 
speak to. But funding across the board has been extraordinarily 
important: funding for EPA so that they can produce the 
guidance that the states need; the monies you spoke to, the 
DERA program, to fund the replacement of diesel equipment and 
the financial incentives so we can use that to accelerate the 
turnover.
    And another program that has been extraordinarily 
successful in the San Joaquin Valley is monies to help farmers 
buy new tractors, much, much cleaner tractors.
    Ms. Matsui. OK, great.
    Mr. Sadredin, as I mentioned, I believe the DERA grants are 
an important tool for reducing diesel emissions from older 
engines and improving over all air quality in California. I 
understand that your air pollution control district has 
benefitted from the DERA program.
    How many DERA grants has your air quality district 
received?
    Mr. Sadredin. We have been fortunate to receive DERA 
funding almost every year. We have always advocated in Congress 
for full funding of that program. Unfortunately, even the 
previous administration every year zeroed out that account, and 
we had to work with you and the rest of the Congress to get 
funding in that program. So, if anything, we need more funding 
in that area and full funding of the DERA program.
    Ms. Matsui. So you really have benefitted from this DERA 
funding in your region?
    Mr. Sadredin. Yes, we have.
    Ms. Matsui. In the past you said incentive programs are 
critical to get the valley into attainment as quickly as 
possible. What will be the impact in the San Joaquin Valley if 
DERA and other federal incentive programs are dismantled?
    Mr. Sadredin. There is no way that we can reach these 
federal standards on the back of businesses alone and with 
regulations only. If you adopt a regulation, you still have to 
wait for the turnover and then the lengthy time that it takes. 
Incentives, with matching funds from the public, from the 
private sector they actually leverage those federal dollars 
quite a bit; they are critical.
    There is no way for us to reach the standards without 
significant funding at all levels, local, state, and federal, 
for incentive fundings such as DERA, targeted air shed grants, 
and NRCS funding that was mentioned earlier. All those are 
critical to meeting our objective to meet the standards as 
expeditiously as possible.
    Ms. Matsui. OK, thank you. And I yield back.
    Mr. Shimkus. The gentlelady yields back her time.
    Seeing no other members present, we really want to 
appreciate your testimony and your diligence. I thought it was 
a great hearing. I think members got a lot out of it and it 
will allow us, hopefully, to move forward.
    I have a couple of documents that have been asked to be 
submitted for the record. Please follow this and make sure I 
don't miss anything.
    Ms. Tonko. OK.
    Mr. Shimkus. Testimony of Glenn Hamer, Arizona Chamber of 
Commerce and Industry, from the Senate Environmental and Public 
Works Committee; a Study on the Surface Ozone Trends from the 
Journal of Atmospheric Chemistry and Physics; the majority 
hearing memorandum. We have got a letter by a lot of health 
groups, dated March 21st, 2017, from the Allergy and Asthma 
Network to the Trust for America's Health. We have a letter to 
me from the Central Valley Air Quality Coalition; another 
letter from the same organization on October 25th, 2015. We 
have another document from them, San Joaquin Valley 2017 Plan 
for the 2012 PM2.5 Standard. Fresno Bee article, Alex Sherriffs 
and John Capitman, ``Don't Back Off Demands for Cleaner Air.'' 
And Office of the Commissioner from the New York State 
Department of Environmental Conservation. American Chemistry 
Council, dated March 22nd.
    And that is all I have, unless you all have anything else.
    Ms. Tonko. Yes, I think you covered them all, Mr. Chair.
    I would like to personally thank the Commissioner of New 
York State, Department of Environmental Conservation, Basil 
Seggos, for what I think is a very strong letter opposing H.R. 
806. He has outlined some very important information.
    So I thank you. You have covered them all. And ask 
respectfully that they--unanimous consent to place all of those 
in the record.
    Mr. Shimkus. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. Again, thank you for attending. This is the 
first stop in moving the process forward, and we look forward 
to working with you during that process.
    The hearing is adjourned.
    [Whereupon, at 11:56 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Greg Walden

    The bill under review this morning provides a promising 
start to the committee's goal of developing and moving common-
sense measures that will reduce the barriers to a more 
productive U.S. economy--while preserving the public health and 
well-being of Americans. H.R. 806 represents the kind of 
targeted legislative updates to our environmental laws that 
will fix provisions that are threatening to do more harm than 
good, given existing regulations and the tremendous advances in 
air quality.
    This bill is about providing sensible tools and relief to 
state and local authorities so they can more effectively 
implement air quality standards for the benefit of their 
communities. It is also about ensuring appropriate timelines to 
enable authorities to do this without unnecessarily restraining 
economic development, especially the development we need to 
accelerate the nation's infrastructure and manufacturing 
capabilities.
    There is no question federal clean-air laws-and state 
authorities that implement those laws have been tremendously 
successful since the first major of revisions of the Clean Air 
Act in 1970. As EPA reports, in aggregate, emissions of key air 
pollutants have declined 71% since 1970. As a result, the air 
we breathe has improved dramatically according to nationwide 
trends: Since 1980, data show ozone is down 32%; nitrogen 
dioxide is down 60%; and particulate matter, just in the past 
15 years, is down almost 40%. Of course, much of this 
improvement over 37 years has occurred against the backdrop, 
overall, of an expanding economy.
    But, there also should be no question that the actual 
margins for continued improvement are also declining, 
especially with existing technologies.
    As state and local air-quality regulators implement new 
rules to drive down pollutant levels in response to statutory 
mandates, more areas of the nation come closer to natural and 
technological barriers to continued improvement. Failure to 
account properly for the existence of these barriers-or to 
provide reasonable time for existing measures to produce 
results-threatens damaging economic consequences.
    I note, for example, Mr. Sadredin's testimony provides the 
troubling example that almost all economic activity could be 
stopped in California's great San Joaquin Valley--including 
preventing highway thru traffic--and there would no meaningful 
improvement to air quality in that region. Yet without 
legislative and regulatory reforms, federal requirements will 
just keep mounting, stifling economic opportunity and growth in 
that important region.
    We should take this example and the examples from our other 
state witnesses this morning as a warning of what more regions 
may confront as air quality standards are tightened at a pace 
faster than innovation, technology, and the regulatory 
implementation process can reasonably keep up.
    Congress did not enact the Clean Air Act to be a regional 
economy killer. The good news is there are sensible reforms 
that will update the act, both to reflect the progress we have 
made and to account for current, practical factors that affect 
continued improvement.
    As I've noted previously, there are many opportunities 
before the committee to make meaningful improvements in our 
environmental laws and regulations--the outcome of which will 
be good for public health and good for the economy. Today is 
just the beginning.
                              ----------                              


             Prepared statement of Hon. Frank Pallone, Jr.

    H.R. 806 is essentially the same legislation the Committee 
considered in the last Congress, and the ``Ozone Standards 
Implementation Act'' is still a very misleading title. While 
the bill does derail the most recent ozone air quality 
standard, these bad policies go far beyond just ozone. Let's be 
clear: H.R. 806 is a broad attack on the successful health 
based standards and protections for all criteria pollutants--
carbon monoxide, particulate matter, nitrogen oxides, sulfur 
dioxides, and even lead.
    H.R. 806 is a compilation of misguided proposals that 
weaken or delay the protections in the law--strategies that 
won't make air pollution magically go away. H.R. 806 puts the 
public health and safety of the American people at risk, and 
virtually guarantees that people living in areas with poor air 
quality will continue to breathe unhealthy air indefinitely.
    We cannot consider this bill in isolation. It is only one 
of many assaults on public health and the environment being 
rolled out by the Trump Administration and the Republican 
Congress.
    The Administration has announced its intention to roll back 
progress in climate change policy, energy efficiency, and clean 
energy. Great news for the fossil fuel industry, but not for 
public health, consumers, low income communities, or the U.S. 
industries and American workers that are poised to take us into 
a clean, low-carbon, and more efficient future. The Trump 
Administration's actions will further speed global warming, 
encourage more fuel consumption, and generate more pollutants 
while costing us jobs in the clean energy sector.
    The budget blueprint the Trump Administration released last 
week proposes to cut EPA's budget by 31 percent--$2.6 billion 
dollars--to reduce the EPA workforce by 3,200 people, and to 
eliminate 50 vital programs that protect the public health and 
environment. I should also note that a large portion of EPA's 
funding goes directly to states to help ensure our communities 
have clean air to breathe and clean water to drink. These 
drastic cuts will be devastating to the people we represent.
    Simultaneously, this bill explicitly says that no new funds 
can be provided to EPA and the states to do the numerous new 
tasks laid out in the legislation. So, although one of the 
stated justifications for this bill is to help states reduce 
air pollution, the fact is that it does exactly the opposite. 
The states need technical and financial support from their 
federal partner--the EPA--to implement the Clean Air Act. The 
Trump Administration budget and this bill abandon that 
partnership, sending a clear message to the states to go it 
alone.
    I do not believe the American people want more air and 
water pollution. Our constituents are not interested in 
breathing dirty air or drinking dirty water. They certainly 
don't want their health compromised by going back to 
ineffective, voluntary pollution control programs.
    We have made great progress in reducing pollution and 
improving people's health. These air standards are based on 
decades of research, reviewed by experts in the health sciences 
who have advised the Administrator that protection of people's 
health requires lower ozone levels.
    My Republican colleagues claim this bill does not increase 
air pollution or undermine the fundamental public health 
protections in the Clean Air Act. But that is exactly what will 
result if you stretch the deadlines for compliance, remove 
vital agency resources, and insert cost and other factors that 
have nothing to do with health.
    Our experience with the Clean Air Act tells us that we do 
not have to choose between the health of our communities and a 
healthy economy. We can have both, and we have achieved both 
under the Clean Air Act.
    I opposed this bill in the last Congress, and. I continue 
to oppose it now. I will not go back on my commitment to the 
public to make the air safe and healthy to breathe. H.R. 806 
breaks that commitment. The Clean Air Act provides EPA and the 
regulated community with sufficient flexibility to continue to 
improve air quality and public health. Instead of undermining 
the law and gutting the EPA, we should provide adequate 
resources to the Agency and to the states to continue to give 
every American clean, healthy air to breathe.
    Thank you, Mr. Chairman.
                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
